<html>
<title> - OVERSIGHT HEARING ON KEEPING THE LIGHTS ON AND REDUCING CATASTROPHIC FOREST FIRE RISK: PROPER MANAGEMENT OF ELECTRICITY RIGHTS-OF-WAY ON FEDERAL LANDS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]








  KEEPING THE LIGHTS ON AND REDUCING CATASTROPHIC FOREST FIRE RISK: 
    PROPER MANAGEMENT OF ELECTRICITY RIGHTS-OF-WAY ON FEDERAL LANDS

=======================================================================

                           OVERSIGHT HEARING

                               before the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                         Wednesday, May 7, 2014

                               __________

                           Serial No. 113-70

                               __________

       Printed for the use of the Committee on Natural Resources


  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 


         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov
          
                                       ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

87-850 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001 
          
          
          
          
          
          
          
          
          
          
          
          
          
                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
            PETER A. DeFAZIO, OR, Ranking Democratic Member

Don Young, AK                        Eni F. H. Faleomavaega, AS
Louie Gohmert, TX                    Frank Pallone, Jr., NJ
Rob Bishop, UT                       Grace F. Napolitano, CA
Doug Lamborn, CO                     Rush Holt, NJ
Robert J. Wittman, VA                Rauul M. Grijalva, AZ
Paul C. Broun, GA                    Madeleine Z. Bordallo, GU
John Fleming, LA                     Jim Costa, CA
Tom McClintock, CA                   Gregorio Kilili Camacho Sablan, 
Glenn Thompson, PA                       CNMI
Cynthia M. Lummis, WY                Niki Tsongas, MA
Dan Benishek, MI                     Pedro R. Pierluisi, PR
Jeff Duncan, SC                      Colleen W. Hanabusa, HI
Scott R. Tipton, CO                  Tony Caardenas, CA
Paul A. Gosar, AZ                    Jared Huffman, CA
Rauul R. Labrador, ID                Raul Ruiz, CA
Steve Southerland, II, FL            Carol Shea-Porter, NH
Bill Flores, TX                      Alan S. Lowenthal, CA
Jon Runyan, NJ                       Joe Garcia, FL
Markwayne Mullin, OK                 Matt Cartwright, PA
Steve Daines, MT                     Katherine M. Clark, MA
Kevin Cramer, ND                     Vacancy
Doug LaMalfa, CA
Jason T. Smith, MO
Vance M. McAllister, LA
Bradley Byrne, AL

                       Todd Young, Chief of Staff
                Lisa Pittman, Chief Legislative Counsel
                 Penny Dodge, Democratic Staff Director
                David Watkins, Democratic Chief Counsel
                                 ------                                
















                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Wednesday, May 7, 2014...........................     1

Statement of Members:
    DeFazio, Hon. Peter, a Representative in Congress from the 
      State of Oregon............................................     3
    Hastings, Hon. Doc, a Representative in Congress from the 
      State of Washington........................................     1
        Prepared statement of....................................     2
    Tipton, Hon. Scott, a Representative in Congress from the 
      State of Colorado, Prepared statement of...................    57

Statement of Witnesses:
    Easley, Michael E., CEO, Powder River Energy Corporation, 
      Chair of the Wyoming Rural Electric Association's Managers' 
      Committee, Sundance, Wyoming...............................    20
        Prepared statement of....................................    21
    Grimm, Lydia, Manager, Environmental Planning and Analysis, 
      Bonneville Power Administration, Portland, Oregon..........    17
        Prepared statement of....................................    18
    Markham, David, President and CEO, Central Electric 
      Cooperative, Inc., Redmond, Oregon.........................     5
        Prepared statement of....................................     7
    Miller, Randall H., Director, Vegetative Management, 
      PacifiCorp, Salt Lake City, Utah...........................     9
        Prepared statement of....................................    10
    Neal, Michael, Manager, Forestry and Special Programs, 
      Arizona Public Service Co., Phoenix, Arizona...............    13
        Prepared statement of....................................    15
    Penna, Jim, Associate Deputy Chief, National Forest System, 
      U.S. Forest Service, Washington, DC........................    45
        Prepared statement of....................................    47
    Roberson, Ed, Assistant Director for Renewable Resources and 
      Planning, Bureau of Land Management, Washington, DC........    49
        Prepared statement of....................................    50

Additional Material Submitted for the Record:
    List of Documents Submitted for the Record Retained in the 
      Committee's Official Files.................................    58
                                     


 
 OVERSIGHT HEARING ON KEEPING THE LIGHTS ON AND REDUCING CATASTROPHIC 
  FOREST FIRE RISK: PROPER MANAGEMENT OF ELECTRICITY RIGHTS-OF-WAY ON 
                             FEDERAL LANDS

                              ----------                              


                         Wednesday, May 7, 2014

                     U.S. House of Representatives

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The committee met, pursuant to notice, at 10:00 a.m., in 
room 1324, Longworth House Office Building, Hon. Doc Hastings 
[Chairman of the Committee] presiding.
    Present: Representatives Hastings, Gohmert, McClintock, 
Lummis, Benishek, Tipton, Labrador, Mullin, Daines, LaMalfa, 
Smith; DeFazio, Holt, Grijalva, Cardenas, and Garcia.
    Also Present: Representative Walden.
    The Chairman. The committee will come to order. The 
Committee on Natural Resources today is meeting to hear 
testimony on keeping the lights on and reducing catastrophic 
forest fire risk, proper management of electricity rights-of-
way on Federal lands. I know that Mr. Walden from Oregon, who 
is not a member of the committee, would like to participate. So 
I ask unanimous consent that, if Mr. Walden does show up, that 
he be able to sit and participate in the hearing.
    [No response.]
    The Chairman. Without objection, so ordered. I will now 
recognize myself for my opening statement. And I will say 
beforehand that I have to leave right after I make my 
statement, and I will turn the gavel over to my colleague from 
Colorado, Mr. Tipton, after I make my statement.

    STATEMENT OF THE HON. DOC HASTINGS, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF WASHINGTON

    The Chairman. The goal of today's hearing is to ensure 
Federal Government accountability so that electricity 
ratepayers will have reliable and affordable power, and forests 
and nearby communities will be protected from avoidable 
catastrophic forest fires.
    As we will hear from today's expert panel of witnesses, 
Federal indecision, delays, and misunderstanding of the Federal 
electricity reliability law are causing serious issues for 
rural cooperatives, other utilities, and their ratepayers that 
bear all of these costs of maintaining electricity rights-of-
ways on Federal lands.
    Worse yet, we will hear that one Federal land management 
agency could impose unrealistic policies to bury electricity 
transmission lines under the guise of saving species. But that 
act would cost a residential customer up to $400,000 each. Now, 
the logical extension of that is probably to bankrupt the 
utility, and doing nothing for the endangered species that is 
trying to be saved.
    Almost a decade ago this committee held a hearing to 
uncover similar abuses and Federal indifference during the 
prior administration. From many accounts, that hearing yielded 
tangible results for some utilities and their ratepayers. Yet, 
proving that this issue is not a partisan one, we are here once 
again to resolve these issues that have reappeared over the 
last few years.
    This committee will hear numerous on-the-ground, real-life 
examples about some of the unnecessary Federal delays and 
inconsistencies encountered by those who are only asking to 
keep the lights on for their customers, and to not be fined up 
to $1 million a day for violating a Federal electricity 
reliability law. We will hear that local utilities face greater 
reliability for hazardous trees that are the Federal 
Government's responsibility.
    In fact, it is telling that the Bonneville Power 
Administration, a Federal agency utility tasked with providing 
millions of Pacific Northwest ratepayers with low-cost energy 
through 15,000 miles of transmission lines, is here at the 
table to voice similar concerns with inconsistent and 
incoherent decisions pursued by agencies that are under the 
same administration.
    At a time of poor forest conditions throughout much of the 
West, we cannot afford to let Federal indecision and inter-
agency conflicts ignite a powder keg waiting to explode. 
Catastrophic fires caused by hazardous trees touching power 
lines only harm the ratepayer and, obviously, they destroy the 
environment.
    So, it is time for the Federal land management agencies to 
adhere to common-sense, consumer-friendly principles that are 
not just in a response to this hearing, but for the long term. 
So I hope that, once again, this hearing will be a major step 
in the decision that will have responsible interpretations of 
laws for all involved.
    [The prepared statement of Mr. Hastings follows:]
  Prepared Statement of the Hon. Doc Hastings, Chairman, Committee on 
                           Natural Resources
    The goal of today's hearing is to ensure Federal Government 
accountability so that electricity ratepayers will have reliable and 
affordable power and forests and nearby communities will be protected 
from avoidable catastrophic forest fires.
    As we will hear from today's expert panel of witnesses, Federal 
indecision, delays, and misunderstandings of a Federal electricity 
reliability law are causing serious issues for rural cooperatives, 
other utilities and their ratepayers that bear all of these costs of 
maintaining electricity rights-of-way on Federal lands.
    Worse yet, we will hear that one Federal land management agency 
could impose unrealistic policies to bury electricity transmission 
lines under the guise of saving species that would cost a residential 
customer up to $400,000 each--essentially bankrupting the utility and 
doing little for the Greater Sage Grouse.
    Almost a decade ago, this committee held a hearing to uncover 
similar abuses and Federal indifference during the prior 
administration. From many accounts, the hearing yielded tangible 
results for some utilities and their ratepayers. Yet, proving that this 
issue is not a partisan one, we are here once again to resolve these 
issues that have been reappeared over the last few years.
    This committee will hear numerous on-the-ground, real life examples 
about some of the unnecessary Federal delays and inconsistency 
encountered by those who are only asking to keep the lights on for 
their customers and not be fined up to $1 million a day for violating a 
Federal electricity reliability law. We will hear that local utilities 
face even greater liability for hazardous trees that are the Federal 
Government's responsibility.
    In fact, it is telling that the Bonneville Power Administration, a 
Federal agency utility tasked with providing millions of Pacific 
Northwest ratepayers with low-cost energy through 15,000 miles of 
transmission lines, is here at the table to voice similar concerns with 
inconsistent and incoherent decisions pursued by agencies under the 
same administration.
    At a time of poor forest conditions throughout much of the West, we 
cannot afford to let Federal indecision and inter-agency conflicts 
ignite a powder keg waiting to explode. Catastrophic fires caused by 
hazardous trees touching power lines only harm the ratepayer and 
destroy the environment.
    It is time that the Federal land management agencies adhere to 
common sense, customer-friendly principles that are not just in 
response to this hearing but for the long term. This hearing is a major 
step in that direction.

                                 ______
                                 

    The Chairman. And, with that, I yield back my time, and 
introduce the gentleman from Oregon, Mr. DeFazio, for his 
statement.

   STATEMENT OF THE HON. PETER DeFAZIO, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. DeFazio. Thank you, Mr. Chairman. Mr. Chairman, 
actually, I have little patience for this issue here today. I 
participated in this issue about a decade ago, and I thought 
that we gave pretty clear direction to the Federal agencies who 
wanted to have uniform policies across Federal agencies and 
between Federal agencies. We didn't mean that, you know, one 
forest should have different policies than the next forest, 
than the next forest, than the next BLM unit, than the next BLM 
unit, et cetera. And it seems that, in many places, that is 
what prevails, that it is up to the discretion of the local 
manager, or the local forest supervisor, what standards will 
apply.
    You know, we have disputes where they are questioning 
existing rights-of-way for the Bonneville Power Administration. 
These are critical national infrastructure assets. And they 
must be treated as such. And, really, it is pretty amazing that 
we have to be here again today, more than a decade later, to 
try and sort this out among the Federal agencies. We need to 
clearly and definitively get this settled.
    It should not be a repetitive process on the part of the 
power providers. You know, we want to acknowledge the permanent 
rights-of-way, we want to manage them sensibly and long-term, 
and it doesn't seem like that is the case. So I look forward to 
the testimony, and I hope that we don't have to pass 
legislation to force common-sense on the disparate Federal 
agencies and units of these Federal agencies in these matters.
    Thank you, Mr. Chairman.
    Mr. Tipton [presiding]. Thank the Ranking Member for his 
opening statement. And we will now hear from our first panel of 
witnesses. I would like to yield to my colleague from 
Washington, Mr. Walden, for the purposes of an introduction.
    Mr. Walden. Well, Oregon, but----
    Mr. DeFazio. We don't want him to go to Washington.
    [Laughter.]
    Mr. Walden. We did cede the lesser lands to Washington, 
though, from the original territory. So, yes.
    [Laughter.]
    Mr. Walden. But I thank the gentleman, and I want to thank 
you for holding this important hearing. I want to associate 
myself with the comments of the Chairman and my friend and 
colleague from Oregon, Mr. DeFazio, on this matter.
    In fact, I was looking back to when I chaired the 
Subcommittee on Forest and Forest Health in this committee in 
2005 and 2006, and we examined some of these very same issues 
then. How do we help facilitate ease of access, renewal of 
rights-of-way, protection of excess liability for utilities who 
provide services to rural customers, particularly when they 
traverse large amounts of Federal land, the public's land?
    While some of these issues were resolved, it appears, based 
on the testimony that you all have presented to the committee 
today, we still have some pretty major problems. And maybe have 
actually slid backwards on some of them.
    Unfortunately, in Oregon, we know all too well about some 
of the issues with the Federal agencies. I have been grappling 
with a few myself of late, with the BLM. Especially we deal 
with these when more than half of our State is public land.
    I am proud the House acted last September to address one 
piece of today's hearing. That is catastrophic wildfire. Our 
bipartisan legislation that Congressman DeFazio and the rest of 
us worked on so hard is now over in the Senate. It would allow 
for some common-sense management in our forests to create jobs 
and deal with some of these issues.
    Just like it shouldn't take several years to put together a 
timber sale, it shouldn't take several years for the BLM or 
Forest Service to renew an existing right-of-way for a 
transmission line. And when Federal agencies do fail to act, 
adjacent private land owners, utilities, and subsequently, 
their customers, are the ones who suffer.
    So, I am delighted that David Markham is here. Dave is from 
Central Electric Cooperative in Redmond. He has a lot of 
experience trying to work through these matters with the 
various agencies to reach solutions. And central Oregon's 
population has increased and the economy has grown over the 
past decade with big additions of Facebook and Apple and other 
data centers. Dave has really played a key role in helping 
facilitate that growth.
    So, I am delighted that Dave can be here today to present, 
I think, some really shocking examples of what they have gone 
through, a ninefold timeline. And when you are dealing with a 
Federal agency versus local governments to get the same types 
of approval, huge costs that may be borne out in Harney County 
and Deschutes County on this issue, if they force them to 
underground the lines, that could result in upwards of over 
$400,000 per customer in Harney County to do what the 
government is saying they would have to do. That bankrupts 
them.
    So, Mr. Chairman, thanks for your indulgence and courtesy. 
And I look forward to hearing from the witnesses.
    Mr. Tipton. Thank you, Mr. Walden. Welcome, Mr. Markham. We 
also are today joined by Mr. Randall Miller, Director of 
Vegetative Management for PacifiCorp in Salt Lake City, Utah; 
Mr. Michael Neal, Manager of Forestry and Special Programs for 
the Arizona Public Service Company in Phoenix, Arizona; Ms. 
Lydia Grimm, Manager for Environmental Planning and Analysis 
for the Bonneville Power Administration based in Portland, 
Oregon; Mr. Mike Easley, CEO for the Powder River Energy 
Corporation, and Chair of the Wyoming Rural Electric 
Association Managers' Committee, from Sundance, Wyoming.
    So, thank you all for taking the time to be able to be 
here. We know that is a trip and an expense. And we certainly 
are going to appreciate your insight.
    Each of our witnesses' testimony today will appear in the 
full record of the hearing. So I ask that our witnesses keep 
their oral statements to 5 minutes, as outlined in the 
invitation letter to you under Committee Rule 4(a).
    I believe you are probably all familiar with our lighting 
system here. When it is green, you are good to go. Yellow is 
caution. And when it gets red, you speed up----
    [Laughter.]
    Mr. Tipton [continuing]. To be able to get through and get 
finished. And if you could keep it within that 5-minute period, 
we would appreciate it. And we certainly thank everyone here 
today that is joining us in the committee room. I know that I 
have a lot of friends out of Colorado with our REAs that have 
joined us here today, as well. And we certainly appreciate the 
time and effort to be here. Your insights are important for our 
rural parts of the country, and what you provide in terms of 
affordable electricity and safe delivery of electricity for our 
areas.
    I now recognize our first witness, Mr. David Markham, 
President and CEO of Central Electric Cooperative, located in 
Redmond, Oregon, for his testimony. Mr. Markham, please 
proceed.

STATEMENT OF DAVID MARKHAM, PRESIDENT AND CEO, CENTRAL ELECTRIC 
               COOPERATIVE, INC., REDMOND, OREGON

    Mr. Markham. Good morning, and thank you, Congressman 
Walden, for the nice introduction. I am very honored to be here 
this morning. And, as introduced, I am Dave Markham, President 
and CEO of Central Electric Cooperative, headquartered in 
Redmond, Oregon.
    In Central Electric, we serve more than 32,000 meters over 
a 5,300-square-mile service territory throughout central 
Oregon. And 53 percent of that service territory is on 
federally managed lands. And I also serve as the President of 
the Oregon Rural Electric Cooperatives Association. And that 
association represents Oregon's 18 member-owned, not-for-profit 
electric cooperatives.
    For more than 60 years now, co-ops have had a productive 
relationship with the Federal agencies that do manage our 
public lands. But the problem that we have is that this 
relationship, it has really deteriorated from what it has been 
in the past. And it is now at a point where it is really 
impacting our ability to provide safe, reliable, and affordable 
electricity to our members.
    And Oregon's electric co-ops, we have been experiencing 
increasing challenges when it comes to securing permits for 
upgrades or replacement or even just routine maintenance of our 
infrastructure for our power lines on Federal lands. And most 
of this work gets driven not only by the need to meet Federal 
and State safety requirements, but also, we have to replace 
aging infrastructure.
    But in order to perform just routine maintenance on our 
power lines--and some that have existed for more than 50 
years--we are required to first go through an extensive 
application process. And it amazes me that this even requires a 
30-day public comment period, just for routine maintenance.
    And just, for example, in May of 2010, Central Electric, we 
began the process of renewing rights-of-way permits with the 
Bureau of Land Management. And after 4 years--that is 4 years--
we are still waiting for renewal of these permits. And I was in 
a meeting yesterday with a number of other States, co-ops from 
other States, and some co-ops have been waiting 8 to 10 years 
for renewal of permits. And so I guess I should feel like I am 
the lucky one, in this case, it being just the 4 years.
    Then, just last week, we were notified by the Forest 
Service that, prior to issuing Central Electric a permit to 
relocate a power pole 6 feet--it is only 6 feet--that it would 
first require an archeologist to come out and inspect the site 
and do a shovel probe. Now, I mean, really, I have to believe 
that we have been doing maintenance on this power line for 50 
years. And, seriously, if there was a dinosaur fossil or 
fossilized dinosaur eggs, we would have found them by now. I 
guarantee it. And so, unfortunately, though, Central Electric, 
this is not an isolated incident for us.
    And Midstate Electric Cooperative, they are also in central 
Oregon, they applied for approval for four permits back in 
2009. And for one of those permits the BLM lost their file. And 
then they came back and they informed Midstate that they had 
missed the deadline for the review process. And to this date, 
that file still has not been found. And then, in 2012, while 
they were still waiting for approval, Midstate, they were 
informed that wind and solar projects took precedence over 
power line permits.
    Now, I have to ask the question that why would wind and 
solar projects take precedence over the reliability of the 
electric system that I hear is so important to us, as co-ops, 
in coming out of Washington, DC.
    And, ultimately, our member-owners suffer the consequences 
of this issue because of higher electric rates that they have 
to pay. And it is all because of these delays and the 
burdensome permitting process.
    So, all of the examples, though, that I just cited, they 
really pale in comparison to the BLM's proposal to protect the 
greater sage-grouse out in Oregon. And the BLM, back in 
January, they released their draft environmental impact 
statement for the sage-grouse. And the measures presented in 
the EIS, they have severe consequences for several Oregon co-
ops. In one proposed measure, as you heard earlier, it calls 
for burying power lines that currently exist in sage-grouse 
habitat.
    Now, as mentioned earlier, Harney Electric Co-op in eastern 
Oregon, they serve slightly more than 4,000 members over a 
service territory that is the size of the State of West 
Virginia. Now, the financial impact to each of their members to 
bury these power lines would be $400,000 per member, and as was 
mentioned earlier, it would basically put this co-op entirely 
out of business.
    There are some additional measures that were in the EIS 
that recommend seasonal or permanent closures of roads that are 
used to access our infrastructure. So, what happens is that 
this reduces our ability for all the co-ops to be able to get 
in and access our infrastructure to do inspections that we are 
required to do, maintenance that we are required to do. And if 
we have to mobilize in the event of a fire, to protect our 
power lines against a catastrophic event like that.
    So, it is truly past time that our Federal land managers 
work together with co-ops, that we implement some truly common 
sense to reform the current practices that are in place. And 
these operational and cultural problems, they are not going to 
be resolved overnight, and they are going to take some long-
term solutions.
    So, if you go back and you look at the mission statements 
of the BLM and the Forest Service, you are going to see words 
like ``serving people,'' ``caring,'' and ``productivity.'' And 
it is my hope that these mission statements, they can be 
revisited, and these words can truly be put into action.
    I thank you very much for the opportunity to testify today, 
and I would be more than happy to answer any questions.
    [The prepared statement of Mr. Markham follows:]
    Prepared Statement of David Markham, President & CEO of Central 
              Electric Cooperative, Inc., Redmond, Oregon
    Good morning Chairman Hastings and members of the Committee on 
Natural Resources. I am Dave Markham, President & CEO of Central 
Electric Cooperative, headquartered in Redmond, Oregon. Central 
Electric is a distribution cooperative serving more than 32,000 meters 
across a 5,300 square mile service territory in central Oregon. I also 
serve as the President of the Oregon Rural Electric Cooperative 
Association, the organization that represents Oregon's 18 member-owned 
not-for-profit electric cooperatives. These co-ops provide power to 
rural Oregonians with more than 30,000 miles of transmission and 
distribution lines that deliver electricity to 65 percent of the land 
mass of the State.
    If we look back in history, electric cooperatives played a key role 
in the electrification of the United States. For more than 60 years, we 
have had a relationship with the Federal agencies that manage our 
public lands. With 56 percent of the land in Central Electric's service 
territory federally managed, this relationship has been instrumental to 
our ability to provide safe, reliable and affordable electricity to 
rural Oregonians. Today, this relationship has changed in a way that 
leaves co-op leaders concerned about the safety and reliability of our 
electrical systems and in some cases even threatens our ability to 
continue providing electricity to rural areas.
    Over the years, Oregon electric cooperatives have experienced 
increasing challenges and lengthy periods of time when securing 
approval for routine maintenance, upgrades or replacement of our power 
lines. Most of this work is driven by not only the need to meet annual 
State and Federal safety requirements but also the need to replace 
aging infrastructure. These permitting challenges are exacerbated by 
Federal employee turnover which creates conflicting and inconsistent 
requirements due to wide variability in the new personnel's 
interpretations of their agency's rules and regulations.
    For example, in May 2010, Central Electric began the process of 
renewing rights-of-way permits with the Bureau of Land Management. 
These permits are a legal requirement because they allow the utility to 
have power lines on federally managed lands. Most of these permits were 
originally issued in the 1950s and 1960s. This was done at little or no 
cost to the utility because of the shared understanding that these 
installations were essential to the well-being of rural Oregon's people 
and economies. Because these permits have an expiration date, Central 
Electric has submitted 32 permits for renewal with a processing fee of 
$45,000 and even after 4 years, we are still waiting for renewed 
permits. While we fully appreciate the importance of valid measures to 
protect the government, we must voice concern over efficiency of our 
Federal agencies when prior to renewal of a permit there is a 
requirement for completion of an extensive environmental impact study 
in areas where power lines have been in place for the last 50 years.
    More than 38 percent of Central Electric's distribution lines are 
underground. Some of this underground cable is reaching the end of its 
life expectancy and is in the process of being replaced. We pride 
ourselves on our safety record and the reliability of our electric 
infrastructure. For several years, we have been replacing existing 
underground cable on lands managed by the Forest Service. The lengthy 
period of time it requires to acquire approval to complete this work is 
having an impact on the safety and reliability of the electricity we 
provide to our members. Central Electric recently completed the 
replacement of a 2.1 mile section of underground cable, immediately 
adjacent to a well-developed road in the same location as the prior 
cable. The Forest Service required 9 months to just approve our 
application to proceed with the project. Comparatively, our utility can 
complete a similar project, in its entirety, on non-federally managed 
lands within 1 month. Last week, we were informed by the Forest Service 
that prior to receiving approval to relocate a power pole a distance of 
6 feet, it would first require an archaeologist to inspect the site and 
perform shovel probes.
    Not only is maintenance of our electric infrastructure required by 
State and Federal law, it is a requirement stated in the rights-of-way 
permits issued from the Federal land agencies. We are now confronted by 
an extensive, difficult and expensive application process--including a 
30-day public comment period--in order to conduct required routine 
maintenance on a power line that has existed for more than 50 years. We 
question the efficiency and need for the burdensome process to gain 
approval to perform maintenance on our facilities that is already a 
condition of the right-of-way permit.
    Unfortunately, Central Electric's experience with the land 
management agencies is not an isolated incident. Other Oregon electric 
co-ops have experienced similar delays, frustrations and lack of 
customer service ethic. This type of conduct is unacceptable to 
utilities not just because of the adverse impact on safety and 
reliability, but also because our member-owners will suffer the 
consequences of higher electric rates due to the costs of delays and 
burdensome permitting activities.

    <bullet> Midstate Electric Cooperative, headquartered in La Pine, 
            Oregon, sought approval for four (4) permits from the BLM 
            in 2009. One project that consisted of a line extension 
            resulted in the BLM losing the file. They later informed 
            Midstate the deadline for the review process had passed. In 
            2012, while still waiting for approval they were informed 
            that wind and solar projects took precedence over power 
            line permits. It has now been 5 years since the initial 
            application was submitted and Midstate is still waiting for 
            approval of these permits.

    <bullet> Wasco Electric Cooperative, headquartered in The Dalles, 
            Oregon, cited a ``horrible experience with the BLM,'' 
            noting that it required 18 months to receive a permit for 
            1.5 miles of power line. A process that should have 
            required only 1 or 2 months to complete needlessly cost the 
            co-op and its members a significant amount of money due to 
            the delay. Wasco management states that when working with 
            the BLM there is an extraordinary lack of customer service, 
            approachability and accountability.

    All of the examples previously cited pale in comparison to the 
BLM's proposed measures to protect the greater sage grouse in Oregon. 
In January of this year, the BLM released its Draft Environmental 
Impact Statement (EIS) for management of the greater sage grouse. While 
co-ops fully understand the need to protect the sage grouse, measures 
presented in the EIS would have severe consequences for several Oregon 
cooperatives.
    One proposed measure requires burying power lines that currently 
exist in sage grouse habitat. Not only is this measure not technically 
feasible, it is cost prohibitive. Harney Electric Cooperative, 
headquartered in Hines, Oregon, serves slightly more than 4,000 members 
spread over approximately 20,000 square miles in southeastern Oregon 
and northwestern Nevada. Their service territory is approximately the 
size of the State of West Virginia. Harney Electric has determined the 
financial impact to burying power lines would cost a staggering 
$400,000 per co-op member. Faced with this financial burden they could 
no longer operate their business and electric service to members would 
terminate.
    Midstate Electric Cooperative, also impacted by the proposal to 
bury power lines in sage grouse habitat, estimates it would be faced 
with the financial burden of $115 million, resulting in a 33 percent 
rate increase to members. Central Electric, which has 464 miles of 
transmission and distribution lines through sage grouse habitat, would 
be burdened with an expense estimated at $241 million to bury its power 
lines.
    Additional measures proposed in the EIS recommend permanent or 
seasonal closures of any road currently used to access electric 
infrastructure. This would limit the ability of co-ops to quickly and 
efficiently access their infrastructure for mandated inspections and 
maintenance, and emergency repairs. Catastrophic wildfires are another 
significant danger. The possibility of this danger is increased by the 
access restrictions which will inhibit proper maintenance of the right-
of-way and restrict a co-op's ability to mobilize and protect their 
lines when fire does strike.
    It is beyond the time that our Federal land managers work 
collaboratively with electric co-ops to develop common sense reform to 
their current practices. As one Oregon co-op manager noted, ``We are 
not the enemy.'' These operational and cultural problems will not be 
resolved overnight and must involve long-term solutions. Co-ops must 
receive assurances that solutions will be implemented that preserve our 
history of providing safe, reliable and affordable electricity to our 
members. If you review the mission statements of our Federal land 
agencies, you will find the words ``serving people'', ``caring'' and 
``productivity.'' It is my hope there is a revisiting of these mission 
statements and the words become action combined with results.
    Thank you for the opportunity to testify. I would be pleased to 
answer any questions.

                                 ______
                                 

    Mr. Tipton. Thank you, Mr. Markham.
    I now recognize Mr. Randall Miller, Director of Vegetative 
Management for PacifiCorp in Salt Lake City, for your 
testimony. Please proceed, sir.

     STATEMENT OF RANDALL H. MILLER, DIRECTOR, VEGETATIVE 
          MANAGEMENT, PACIFICORP, SALT LAKE CITY, UTAH

    Mr. Miller. Thank you, Mr. Chairman. I appreciate the 
invitation here to address this important topic.
    PacifiCorp serves customers in the northwestern United 
States, including sections of Chairman Hastings' district back 
in Washington, and yours, Mr. DeFazio, in Oregon. We cross 33 
different national forests. And each national forest is 
subdivided into three, maybe four, districts. We work with 
dozens of BLM offices, half-a-dozen national parks, as well as 
at least one Federal wildlife refuge. So our foresters have 
extensive experience working with Federal land managers.
    In the wake of the August 14, 2003 black-out, the Federal 
Energy Regulatory Commission adopted, essentially, a zero 
tolerance policy for trees encroaching on transmission lines 
that are part of an interconnect, the Western, Eastern, or 
Texas Interconnect. The challenge for industry is complying 
with the zero tolerance policy on a system that consists of 
hundreds of thousands of miles of line that reticulate a vast 
continent. And under and adjacent to those hundreds of 
thousands of miles of line grow millions of trees, any one of 
which has the potential to contact a line, with catastrophic 
consequences. With a zero tolerance policy, that is a large 
responsibility to live up to.
    Industry works to live up to that through what we call 
integrated vegetation management, which is an adaptation of 
integrated pest management--the pest, in this case, being 
incompatible vegetation that could grow and conflict with power 
lines. We find that Federal officials here in Washington, DC 
are largely supportive with the concepts of integrated 
vegetation management. They have worked with us and signed on 
to an MOU in 2006, which they are renegotiating now in good 
faith to renew. They have worked on a desktop guide that 
largely supports the concepts of integrated vegetation 
management.
    The difficulty that we have is the decentralized 
decisionmaking structure of Federal agencies. Each local 
district, each local region, each local office has autonomy on 
what can and cannot be done in their district, without right of 
appeal from us. We get good cooperation from any of these 
people. They understand the issues of vegetation management. 
They understand the importance of the electrical grid. Others 
do not. And they may oppose us.
    We find that at district boundaries, which are ecologically 
arbitrary, decisions can change abruptly. Or, we can have 
personnel changes, due to retirement or transfers. And our 
relationship can go from cooperative to antagonistic overnight, 
just by the addition of a single individual. And we wind up 
with situations such as those related by my colleague, Mr. 
Markham.
    Mr. DeFazio, I appreciate your comments that we cannot 
accept a patchwork of decisionmakers on a local basis who may 
or may not understand the larger issues of the importance of 
the electrical grid to us. And we need to have continuity of 
policy and decisionmaking on Federal lands. And I appreciate 
you holding this hearing toward that end. Thank you very much.
    [The prepared statement of Mr. Miller follows:]
    Prepared Statement of Randall H. Miller, Director of Vegetation 
Management, on behalf of PacifiCorp and the Edison Electric Institute, 
                          Salt Lake City, Utah
    My name is Randall H. Miller, and I am the Director of Vegetation 
Management for PacifiCorp, where I administer vegetation management on 
roughly 16,000 miles of transmission and 45,000 miles of overhead 
distribution lines throughout the Intermountain West and Pacific 
Northwest. I appreciate the opportunity to testify before this joint 
subcommittee hearing on behalf of PacifiCorp and the Edison Electric 
Institute (EEI).
    PacifiCorp serves more than 1.7 million customers in six western 
States. It is a subsidiary of Berkshire Hathaway Energy, and does 
business as Pacific Power in California, Oregon and Washington, and as 
Rocky Mountain Power in Idaho, Utah and Wyoming. Environmental respect 
is a core value of Berkshire Hathaway Energy, a value that is 
emphasized from the top, and influences the entire organization, 
including activities of PacifiCorp's vegetation management department. 
As a utility that covers a wide geographic area of the western United 
States where there are substantial Federal land holdings, PacifiCorp 
has a good deal of interaction with Federal land managers. For example, 
PacifiCorp facilities cross 33 national forests, dozens of BLM 
jurisdictions, as well as at least seven national parks and two Federal 
wildlife refuges.
    EEI is the premier trade association for U.S. shareholder-owned 
electric companies and serves international affiliates and industry 
associates worldwide. Our U.S. members serve 97 percent of the ultimate 
customers in the shareholder-owned segment of the industry and 71 
percent of all electric utility customers in the Nation.
    In my written testimony, I will address two problems--the 
criticality of keeping trees from power lines, and the difficulties 
imposed by the decentralized decisionmaking structure of Federal 
agencies in keeping trees from power lines. In the course of my 
testimony, I will offer integrated vegetation management as an 
environmentally sound, cost effective way of keeping trees from power 
lines, and suggest the forest service adopt a policy of utilizing 
integrated vegetation management on Federal lands throughout the 
country.
    Electricity is the only commodity that is manufactured, 
transported, distributed, delivered and consumed in the same instant. 
Electrification was named by the National Academy of Engineers (2000) 
as the greatest engineering accomplishment of the 20th Century, ahead 
of automobiles, aviation, space travel computers and the other great 
innovations of the 1900s--none of which would have been possible 
without abundant, safe, reliable electric power. Maintaining that 
abundant supply of safe, reliable electric power is crucial in ensuring 
America's national and cyber security as well as economy by ensuring 
smooth functioning of industry, commerce, government, and domestic 
life.
    The system that makes it all possible is comprised in part of 
hundreds of thousands of miles of transmission lines that reticulate 
North America. These lines are divided into three interconnects--
eastern, western and Texas. Interconnected lines allow transmission of 
electricity to areas of greatest need, which can shift due to weather 
conditions. The system is efficient insofar as it has reduced the need 
to build power plants that may only be needed occasionally to cover 
peak loads in particular localities. While interconnects are efficient, 
they have been vulnerable to failure in cases of widespread high demand 
associated with region-wide heat waves. Failures have occurred three 
times in the past 20 years, when heavily loaded lines were knocked out 
of service after sagging into trees. Electricity from these lines was 
diverted to other lines, overloading and causing them to shut down, 
sending their lost capacity to other heavily loaded lines, knocking 
them out of service, eventually creating a series of cascading events 
that resulted in widespread blackouts. The most notorious of these 
three grid collapses occurred on August 14, 2003, where 50 million 
people in eastern North America were left without power, some for 
weeks.
    The August 2003 blackout led to intense review by utilities, the 
Federal Energy Regulatory Commission (FERC), the North American 
Reliability Corporation (NERC) and others. For the utility industry, 
the most significant result has been development of a vegetation 
management standard by NERC approved by FERC. The standard mandates up 
to $1 million a day penalty for utilities that allow trees to grow into 
transmission lines that are subject to the standard with the objective 
of preventing cascading blackouts caused by trees. The ramifications of 
the NERC vegetation management standard is that FERC has a zero-
tolerance policy regarding vegetation contacts with power lines. The 
challenge for the utility industry is how best to comply with zero 
tolerance when they are confronted by hundreds of thousands of miles of 
lines that span a vast continent. Particularly when under and adjacent 
to these lines grow many millions of trees that could potentially grow 
into and interfere with electric facilities.
    One way industry has responded is through development of national 
consensus standards through the American National Standards Institute. 
The American National Standard for Tree Care Operations (ANSI A300) was 
issued in nine parts by the green industry, including representatives 
from the USDA Forest Service and National Parks Service. The 
International Society of Arboriculture has also published best 
management practices to accompany the ANSI A300 series.
    ANSI A300 Part 7 (2012) adapts the principles of integrated pest 
management to a principle called integrated vegetation management 
(IVM). I wrote the accompanying IVM best management practices for the 
International Society of Arboriculture. In the case of integrated 
vegetation management, the ``pest'' populations are ``incompatible'' 
plants. Incompatible plants might be noxious weeds, invasive plant 
species or any vegetation that managers consider inappropriate for a 
given site. In a utility context, the inappropriate plants are often 
those that have the potential to interfere with or limit access to 
electric facilities at some point in their life.
    ANSI A300 Part 7 defines IVM as a system of managing plant 
communities in which managers set objectives, identify compatible and 
incompatible vegetation, consider action thresholds, and evaluate, 
select and implement the most appropriate control method or methods to 
achieve their established objectives. The choice of control method or 
methods is based on their environmental impact and anticipated 
effectiveness, given site characteristics, security, economics, current 
land use and other factors.
    The ideal objective for the utility industry is to use IVM 
principles to establish plant communities comprised of species that 
will never interfere with the electric facilities (Miller 2014). A 
useful tool is a biological control known as cover-type conversion, 
which provides a competitive advantage to short-growing, early 
successional plants, allowing them to thrive and successfully compete 
against unwanted tree species for sunlight, essential elements and 
water. It often requires selective use of herbicides against 
incompatible species to enable desirable species to become established. 
The early successional plant community is relatively stable and tree-
resistant. As this community becomes increasingly established, the need 
for intervention decreases. In the long run, industry considers this 
type of biological control to be the most appropriate method, at least 
where it can be done effectively.
    The wire-border zone concept is an important management philosophy 
that can be used in many areas and applied through cover type 
conversion. W.C. Bramble and W.R. Byrnes developed it in the mid-1980s 
out of research begun in 1952 on a transmission right-of-way in the 
Pennsylvania State Game Lands 33 Research and Demonstration project 
(Yahner and Hutnick 2004).
    The wire zone is the section of a utility transmission right-of-way 
under the wires and extending on both sides to a specified distance. 
The wire zone is managed to promote a low-growing plant community 
dominated by grasses, herbs and small shrubs (e.g. under 3-feet at 
maturity). The border zone is the remainder of the right-of-way. It is 
managed to establish small trees and tall shrubs (e.g. under 25-feet in 
height at maturity). The concept may be modified to accommodate side 
slope and changes in topography. When properly managed, diverse, tree-
resistant plant communities develop in wire and border zones. The 
communities not only protect the electric facility and reduce long-term 
maintenance, but also enhance wildlife habitat, forest ecology and 
aesthetic values. It can't be applied everywhere. For example, in some 
fire-prone areas, the border zone may not be indicated, as it may 
contribute ladder fuels that could exacerbate the spread of wildfire. 
However, wherever it can be applied, it has proven useful in enhancing 
wildlife habitat and protecting electric facilities.
    The benefit of IVM and cover type conversion is that it works with 
nature, rather than against it, decreasing costs and the utility's 
footprint over time. Furthermore, IVM can create opportunities to 
enhance the environment. For example, the EPA is actively supporting 
pollinator protection. The National Pollinator Protection Campaign, a 
collaboration of over 140 groups dedicated to promoting pollinators in 
North America, endorses integrated vegetation management on utility 
rights-of-way for expanding pollinator habitat comprised of meadow or 
prairie species. Those communities are consistent with industry's 
objectives as well, as the species that comprise meadows and prairies 
will never interfere with the use of the transmission lines. A central 
point is that rather than looking at transmission corridors as 
sacrifice areas, industry, government, private environmental groups and 
the public working together can use them as areas of opportunity to 
provide much needed habitat that may be otherwise threatened, while at 
the same time protecting the Nation's electric supply.
    The utility industry considers integrated vegetation management to 
be a sustainable, cost effective and environmentally sound approach to 
protect the critical electric grid. Federal agency management in 
Washington, DC has agreed insofar as they were signatories to the 2006 
MOU with EEI Member utilities, which emphasized application of IVM 
principles. They have also participated in developing the American 
National Standard for Tree Car Operations (ANSI A300), including Part 
7, IVM. Many local managers agree and consider IVM to be the best 
approach in maintaining electric utilities that cross Federal property. 
However, at least from industry's perspective, others seem to view 
electric rights-of-way as loss areas, and work to impede maintenance, 
including vegetation management.
    The inconsistent viewpoints of Federal land managers creates 
difficulties for utilities because local authorities are empowered to 
make their own decisions for what is or is not appropriate in their 
jurisdictions. The arrangement creates unpredictable directives 
regarding what is or what is not authorized on utility corridors on 
Federal lands--in spite of land managers ostensibly working with the 
same policies and procedures. Many utilities express frustration that 
requirements can change dramatically at district boundaries, which are 
ecologically arbitrary. In other cases authorization changes 
substantially when one individual transfers or retires and is replaced 
with someone with different views. To provide an understanding of the 
degree of difficulty can create, recall that PacifiCorp's facilities 
cross 33 different national forests. Each national forest is divided 
into three or four districts, each with independent decisionmaking 
authority. That means PacifiCorp foresters may have to work 
individually with well over 100 different governing authorities for the 
USDA Forest Service alone. Add to that a number of regions of the BLM, 
national parks and Federal wildlife refuges, all of which have ongoing 
personnel changes, and one can understand how working with Federal 
agencies can be so problematic and time consuming.
    Local decisionmakers who oppose utility vegetation management can 
delay timely authorization for required routine maintenance. They can 
add redundancy and repetition in reviews and work requirements and add 
delay without a corresponding benefit. At other times, they can deny 
permission to remove dead and dying trees or other vegetation that 
poses a threat to transmission facilities, which can create unnecessary 
risk. Living trees continue to grow toward the power lines and dying 
trees continue to threaten to fall on electric facilities regardless of 
a decision timeline, so the inability to carry out routine maintenance 
can lead to emergency situations. All of these factors can 
unnecessarily raise costs, expose the electric grid to outages, 
including catastrophic grid failure, and increase fire risk.
    That is not to say these problems are universal. On the contrary, 
some districts understand the issues, and cooperate in the context 
responsible land management. Furthermore, there have been positive 
developments such as those sited by my colleague Mike Neal, with the 
2006 memorandum of understanding among EEI member utilities and Federal 
agencies, which is being renegotiated, and the desk top guide, which is 
helpful. Arizona Public Service and Xcel Energy have also reached 
memorandum's of understanding on a region basis in their respective 
service territories. PacifiCorp is working with the Intermountain 
Region of the Forest Service to reach a region-wide understanding on 
integrated vegetation management. These are all encouraging 
developments and indicate a willingness among many Federal land 
managers to serve the public's need for safe reliable electricity while 
maintaining sound stewardship over Federal land.
    Yet, PacifiCorp and other utilities continue to encounter problems 
with local Federal decisionmakers. Cyber security, national security, 
industry, commerce and domestic life are dependent on flawless 
functioning of the electrical interconnects. That is why FERC has a 
zero tolerance policy for tree contacts on interconnected transmission 
lines. The benefits electricity provides are too important to be left 
to a patchwork of independent assessments made by individuals who may 
or may not have electric or vegetation management training and may or 
may not understand the ramifications of their judgment on the 
electrical system. Industry would like to see broader policy directives 
that not only take into consideration important environmental and land 
management issues, but also take into account the importance of the 
electric interconnect, the negative impact trees can have on it and the 
cost maintenance of the electric grid has to the public. Moreover, 
industry would like to see decisions based on research, rather than 
opinion, and from that perspective, that means leveraging proactive 
integrated vegetation management in creating plant communities that 
contribute to the environment without threatening the Nation's electric 
supply. If protecting the electric grid is so important that the 
Federal Government cannot tolerate contacts between trees and 
interconnected transmission lines, all facets of the government should 
work with industry to help meet that objective.
    Thank you for holding this hearing. PacifiCorp and EEI look forward 
to working with you further on these important issues.
References

ANSI. 2012. ANSI A300: American National Standard for Tree Care 
Operations--Integrated Vegetation Management a. Electric Utility 
Rights-of-way. Part 7 (Integrated Vegetation Management). Tree Care 
Industry Association. Manchester, NH.

Miller, R.H. 2014. Best Management Practices: Integrated Vegetation 
Management for Integrated Vegetation Management for Utility Rights-of-
Way. International Society of Arboriculture. Champaign, IL.

Yahner, R.H. and R.J. Hutnik. 2004. Integrated Vegetation Management on 
an Electric Transmission Right-of-way in Pennsylvania, U.S. Journal of 
Arboriculture. 30:295-300.

National Academy of Engineering.     2000.     Greatest Engineering 
Achievements of   the   20th   Century.       http://www.mae.ncsu.edu/
eischen/courses/mae415/docs/GreatestEngineeringAchievements.pdf   
(Accessed 4/30/2014).

                                 ______
                                 

    Mr. Tipton. Thank you, Mr. Miller.
    I would now like to recognize Mr. Michael Neal, Manager for 
Forestry and Special Programs for the Arizona Public Service 
Company in Phoenix, Arizona.
    Mr. Neal, welcome, and thank you for being here, and please 
proceed.

   STATEMENT OF MICHAEL NEAL, MANAGER, FORESTRY AND SPECIAL 
     PROGRAMS, ARIZONA PUBLIC SERVICE CO., PHOENIX, ARIZONA

    Mr. Neal. Thank you, Mr. Tipton, for having us here today. 
And I will echo what Randy said on this very important subject.
    Managing and clearing vegetation with or near right-of-ways 
has been and continues to be very difficult, whether the right-
of-way is located on private or Federal land. While integrated 
vegetation management and utility vegetation management 
requirement impacts less than a fraction of a percent of 
overall Federal lands, the consequences of not effectively 
managing right-of-ways and power line corridors can be 
significant and catastrophic.
    The failure to appropriately manage vegetation right-of-way 
corridors can result in destructive wildfires caused by direct 
power line contact, or through indirect contact when trees are 
close enough to the power line that spark-over can occur. These 
fires destroy natural resources that take decades to recover. 
They result in loss of habitat critical for recovery of 
endangered species, and they destroy irreplaceable archeology 
and historic sites. They cause extensive and expensive property 
damage, and can even lead to tragic loss of human life. They 
also jeopardize reliability, electric service, and even 
national security.
    The utility industry is not only concerned about the 
encroachment of vegetation within the right-of-way, but hazard 
trees growing outside the permitted right-of-way. These hazard 
trees can fall on the power lines, potentially causing a power 
outage, or even a catastrophic wildfire. In many cases, the 
utilities don't have the right to remove these trees. In spite 
of this, utilities are often held liable for suppression costs 
and damages when these off-right-of-way hazard trees cause a 
wildfire.
    In recent years, utilities have literally paid out millions 
of dollars to cover these costs. Utilities believe that Federal 
agencies, as the official land managers, have the 
responsibility and obligation to manage these outside hazard 
trees. The utilities recognize the challenges faced by land 
management agencies as they work under various multi-use 
mandates. However, when Federal agencies approve power line 
right-of-ways, it is important that they recognize the primary 
use of that strip of land is for the safe and reliable delivery 
of power from one location to another.
    Some of the hazards inherent to power line facilities 
demand that vegetation management be the main priority over 
less compatible uses. It is important to understand that 
significant impacts or changes to the natural flora and fauna 
within the right-of-way took place often decades ago, at the 
time of construction, when these corridors were initially 
cleared. Since that time, utilities have simply maintained 
these clear corridors, with no further significant 
environmental impacts. Yet, in many cases, standard vegetation 
management activities are subject to significant environmental 
review, even though this critical required maintenance has been 
carried out for years.
    In my previous testimony 8 years ago--I was here--I 
reported on a memorandum of understanding which was signed by 
the Federal agencies in EEI on behalf of its member companies. 
The MOU recognized technical standards and requirements for 
maintaining reliability and signals to all Federal land 
managers that meeting them is a priority. This was a step in 
the right direction. However, upon implementation, the MOU had 
little or no impact at the regional forest district or local 
level. It, essentially, was a guideline, rather than a forcible 
policy. This MOU has now expired, and is presently being 
revised by the utility industry and the various Federal 
agencies. Representatives of the electric utility industry and 
Federal agencies are working in good faith to update and 
improve the MOU.
    In addition, the Forest Service recently published a 
desktop guide for utility vegetation management, as Randy 
mentioned. The agency solicited input from the utility industry 
to provide greater clarity regarding decisionmaking associated 
with UVM activities. Once again, while the desktop guide is a 
positive step, it is only a guideline with no requirement to 
follow it in the field.
    Inconsistency and misunderstanding between utilities and 
Federal agencies must be eliminated, and we are working toward 
that with a renewed MOU. Legislation is needed to ensure that 
electric utilities are able to manage power line right-of-ways 
on Federal lands efficiently and in a timely manner. The issue 
of liability related to off-right-of-way hazard trees also 
needs to be addressed in legislation. Such legislation, in 
conjunction with the MOU and a desktop guide, will ultimately 
provide for safe, reliable delivery of electricity, while 
protecting natural and cultural resources.
    And, again, Chairman, thank you for having us here today.
    [The prepared statement of Mr. Neal follows:]
   Prepared Statement of Michael Neal, Manager, Forestry and Special 
         Programs, Arizona Public Service Co., Phoenix, Arizona
    My name is Mike Neal, and I am the Manager of Forestry and Special 
Programs for Arizona Public Service (APS), where I administer some 
6,000 miles of transmission and 11,000 miles of distribution lines 
throughout Arizona. APS' power lines cross 5 national forests, 4 BLM 
districts, 4 wildlife refuges, 11 units managed by the National Park 
Service and 3 National Monuments managed by the Bureau of Land 
Management (Agua Fria, Ironwood Forest and Sonoran Desert).
    The management of the power lines on Federal lands is an integral 
component of APS' program to protect the security and reliability of 
the grid. I appreciate the opportunity to testify before this joint 
subcommittee hearing on behalf of APS and the Edison Electric Institute 
(EEI).
    APS, Arizona's largest and longest-serving electricity utility, 
serves more than 1 million customers in 11 of the State's 15 counties. 
With headquarters in Phoenix, APS is the largest subsidiary of Pinnacle 
West Capital Corporation (NYSE:PNW).
    EEI is the premier trade association for U.S. shareholder-owned 
electric companies and serves international affiliates and industry 
associates worldwide. Our U.S. members serve 97 percent of the ultimate 
customers in the shareholder-owned segment of the industry and 71 
percent of all electric utility ultimate customers in the Nation.
    It has been 8 years since APS and EEI first spoke before Members of 
the House and Senate about problems associated with managing rights-of-
way (ROWs) on Federal lands.
    Managing and clearing vegetation within or near ROWs has been, and 
continues to be very difficult, regardless of whether the ROW is 
located on private or Federal land. While Integrated Vegetation 
Management (IVM) and Utility Vegetation Management (UVM) requirements 
impact ``less than a fraction of a percent'' of overall Federal lands, 
the consequences of not effectively managing the ROWs and powerline 
corridors can be significant and catastrophic.
    The failure to appropriately manage vegetation in ROW corridors can 
result in destructive wildfires caused by direct vegetation--powerline 
contact, or through indirect contact when the trees are close enough to 
the powerline that spark-over can occur. These fires destroy natural 
resources that can take decades to recover. They result in the loss of 
habitat critical for the recovery of endangered species. They destroy 
irreplaceable archaeological and historical sites. They cause extensive 
and expensive property damage, and can even lead to the tragic loss of 
human life. They also jeopardize reliable electric service and even 
national security.
    The utility industry is not only concerned about the encroachment 
of vegetation within the ROW, but also ``hazard trees'' growing outside 
the permitted ROW. A hazard tree is a tree that has been assessed and 
found likely to fail and cause an unacceptable degree of injury, damage 
or disruption. These ``hazard trees'' can fall into the power lines 
potentially causing a power outage, or even a catastrophic wildfire. In 
many cases the utilities don't have the right to remove these trees.
    In spite of this, utilities are often held liable for suppression 
costs and damages when these off-ROW hazard trees cause a wildfire. In 
recent years utilities have literally paid out millions of dollars to 
cover these costs.
    The utilities believe that the Federal agencies, as the official 
land managers, have the responsibility and obligation to manage these 
outside the ROW hazard trees. This is no different than protecting the 
public from hazardous trees in a campground.
    The utilities recognize the challenges faced by land management 
agencies as they work under various multiple-use mandates. However, 
when Federal agencies approve power line ROWs it is important that they 
recognize the primary use of that strip of land is for the safe and 
reliable delivery of power from one location to another. Some of the 
hazards inherent to power line facilities demand that VM be the main 
priority over less compatible uses.
    The character of the electric grid has changed considerably since 
the Energy Policy Act of 1982, and EPAct 2005 will accelerate those 
changes. As a result, where power lines cross Federal lands, these 
lands should be considered first and foremost as essential components 
of the Nation's critical infrastructure.
    It is important to understand that any significant impacts or 
changes to the natural flora and fauna within the ROW took place often 
decades ago at the time of construction, when these corridors were 
initially cleared of vegetation. Since that time, utilities have simply 
maintained those cleared corridors, with no further significant 
environmental impacts. Yet in many cases, standard vegetation 
maintenance activities are subject to significant environmental review 
even though this critical, required maintenance has been carried out 
for years.
    In my previous testimony 8 years ago, I reported on a Memorandum of 
Understanding (MOU) which was signed by the U.S. Forest Service, the 
Bureau of Land Management, the Fish and Wildlife Service, the 
Environmental Protection Agency, the National Park Service, and also 
EEI on behalf of its member companies. The MOU recognizes the technical 
standards and requirements for maintaining reliability and signals to 
all Federal land managers that meeting them is a priority. This was a 
step in the right direction; however, upon implementation the MOU had 
little or no impact at the Regional, Forest, District, or local level. 
It essentially was a guideline rather than an enforceable policy. This 
MOU has now expired and is presently being revised by the utility 
industry and the various Federal agencies. Representatives of the 
electric utility industry and Federal agencies are working in good 
faith to update and improve the MOU.
    In addition, the Forest Service recently published a ``Desktop 
Guide for Utility Vegetation Management.'' The agency solicited input 
from the utility industry to provide greater clarity regarding 
decisionmaking associated with UVM activities. Once again, while the 
desk guide is a positive step, it is only a guideline with no 
requirement to follow it in the field. The jury is out as to whether 
the desk guide will have any meaningful impact at the Forest or 
District level.
    EEI, the Utility Arborist Association, vegetation management 
managers and the Federal agencies have been in discussion, as I 
mentioned earlier, to revise the MOU. During these discussions we 
received valuable feedback from the Federal agencies about concerns 
they have regarding utility vegetation management (VM) programs. 
Agencies perceive that utilities are often not consistent in their 
approach to VM activities, and in many cases, give little or no notice 
regarding VM activities being performed on Federal lands. 
Inconsistencies and misunderstandings between the utilities and the 
Federal agencies must be eliminated, and we are working toward that 
with the renewed MOU.
    In conclusion, legislation is needed to ensure that electric 
utilities are able to manage power line ROWs on Federal lands 
efficiently and in a timely manner. The issue of liability related to 
off ROW hazard trees also needs to be addressed in legislation. Such 
legislation, in conjunction with the MOU and the desk guide, will 
ultimately provide for the safe, reliable delivery of electricity while 
protecting natural and cultural resources.
    Thank you for holding this hearing. APS and EEI look forward to 
working with you further on these important issues.

                                 ______
                                 

    Mr. Tipton. Thank you, Mr. Neal.
    I would now like to be able to recognize Ms. Lydia Grimm, 
Manager of Environmental Planning and Analysis for the 
Bonneville Power Administration, based in Portland, Oregon.
    Thank you for being here, and please proceed with your 
testimony.

 STATEMENT OF LYDIA GRIMM, MANAGER, ENVIRONMENTAL PLANNING AND 
  ANALYSIS, BONNEVILLE POWER ADMINISTRATION, PORTLAND, OREGON

    Ms. Grimm. Thank you, Mr. Chairman, members of the 
committee. I appreciate very much the opportunity to be here 
today to talk about this issue.
    As you know, Bonneville is a power marketing administration 
within the U.S. Department of Energy. We supply about half of 
the energy supply in the Pacific Northwest, and we actually 
operate and maintain over three-quarters of the high-voltage 
transmission system in the Northwest. So this means about 
15,000 circuit miles of transmission lines, and about 8,500 
miles of access roads throughout the Northwest. So, as you can 
imagine, maintaining that is a pretty big job. But we have a 
fantastic transmission field organization that is really good 
at keeping the lights on.
    But our mission is really to maintain a very safe, 
reliable, and efficient transmission system that is cost-
effective for ratepayers. And we try to do this with safety in 
mind first. Operating a high-voltage system in particular, 
there are a lot of hazards for both our workers and the public 
that may be in and around these transmission corridors. So we 
focus on making sure there is a lot of good clearance.
    Of course, vegetation management, as we have been talking 
about, is critical. Particularly on high-voltage systems like 
ours, you don't need to have anything touching the lines; they 
will arc. And with high voltage, they will arc a long distance. 
So you have to work really hard to not only clear and maintain 
lower-growing communities, but you need to keep an eye on those 
hazard trees. And so that is our priority.
    But we are also, as others have mentioned, embarking on a 
significant amount of maintenance. Bonneville recently 
celebrated its 75th anniversary, and we are also seeing an 
aging infrastructure. So we have a very big program going on 
right now to work on replacing individual components as they 
age: wood poles, steel components, as well as rebuilding 
segments of line on these existing transmission corridors. We 
have a very big program, moving forward, to make sure we have a 
robust system going to the next 20, 30 years.
    Because of the scale of where we operate, we actually are 
on about 1,500 miles of Federal lands, particularly Forest 
Service and BLM, some refuges, some Park Service, et cetera. 
But it is primarily Forest Service and BLM. And I think, unlike 
some of the other testifiers here today, we are somewhat unique 
in that we are also a Federal agency. So we are understanding 
of the responsibilities that the Federal land managers have. We 
are also responsible for some of the same environmental 
statutes and compliance.
    I think we found our best path forward with them is 
communicating regularly, coordinating regularly with the local 
managers. They know the ground the best, they can identify 
issues and concerns. And we typically work really well together 
to address individual concerns they may have.
    For example, we have worked well on the Bridger-Teton 
National Forest there, had some significant bark beetle issues. 
And one of the things we did was help change our practice for 
how we do the lop and scatter of the vegetation management to 
reduce the size of the material left behind, so it wouldn't 
create new habitat for beetle. So we do try to address that on 
an individual basis.
    I think the main message from our standpoint, though, is 
that it is really better coordination and communication that 
can really help. We are working on a national permit with the 
Forest Service right now that will help us set a consistent 
standard for all of the actions that we do on our existing 
right-of-ways and in existing operation and maintenance plans, 
and so we are looking forward to getting that completed.
    But that is all I have. If you have any questions, I am 
happy to answer. And thank you, again, for the opportunity.
    [The prepared statement of Ms. Grimm follows:]
Prepared Statement of Lydia Grimm, Manager, Environmental Planning and 
      Analysis, Bonneville Power Administration, Portland, Oregon
    Thank you Mr. Chairman, I appreciate the opportunity to provide the 
committee with information about the Bonneville Power Administration's 
experience with the management of electricity rights-of-way on Federal 
lands.
    As background, the Bonneville Power Administration (BPA) provides 
nearly three-quarters of the electricity in the Pacific Northwest, and 
maintains a network of approximately 15,000 circuit miles of high-
voltage electric transmission lines and over 8,500 miles of access 
roads. BPA's electric transmission system operates in seven States--
Oregon, Washington, Idaho, and portions of Montana, Nevada, Wyoming, 
and California. About 1,500 miles of BPA's transmission system is 
located on lands managed by the U.S. Forest Service and the Bureau of 
Land Management.
    Vegetation management is a major component of BPA's maintenance of 
the transmission system. We need to keep vegetation a safe distance 
away from our transmission facilities, including our transmission lines 
and access roads. We must be able to get to these facilities to carry 
out routine and emergency maintenance, and we must make sure that 
nothing falls into or grows too close to the transmission line. If 
vegetation is too close to our lines, it can arc over and cause serious 
injury or death to someone nearby, it can cause an outage of the line, 
or it can start a fire. This can also happen when a line overheats on a 
hot day or when it is carrying a high power load, and as a result, 
stretches and sags closer to the vegetation below. For example, in 
August of 1996, a very hot day created sag in some lines which led to 
arcing into an orchard tree that grew too high, and caused an outage 
that extended to parts of Canada and 10 Western States. Over 7 million 
residences and businesses lost power.
    BPA has an extensive vegetation management program designed to 
ensure the safety and reliability of BPA's transmission system while 
protecting the environment. BPA's vegetation management is guided by a 
number of safety standards, including the National Electrical Safety 
Code, which defines the minimum safe distance between objects or 
workers and energized lines. In addition, BPA adheres to the North 
American Electric Reliability Corporation (NERC) Reliability Standards, 
as well as those developed by the Western Electricity Coordinating 
Council (WECC) the regional entity responsible for coordinating and 
promoting bulk electric system reliability for the western 
interconnected transmission systems. These standards require BPA to 
define specific heights and distances for trees and other vegetation 
near its transmission lines. In addition to NERC and WECC standards, 
BPA adheres to a program of inspection, monitoring, maintenance, and 
reporting regarding vegetation management associated with its 
transmission facilities. A Category 1 grow-into outage \1\ can result 
in potential NERC fines up to $1,000,000 per day and also require BPA 
to implement a mitigation plan which may be even higher in cost.
---------------------------------------------------------------------------
    \1\ A ``Category 1 grow-into outage'' is an outage caused by 
vegetation growing into lines from vegetation inside and/or outside of 
the right-of-way. NERC Reliability Standard FAC-003-1.
---------------------------------------------------------------------------
    In general, BPA's policy is that trees or other vegetation in the 
rights-of-way may not grow over 10 feet tall at maturity, unless they 
are in a deep canyon so they could not possibly grow into the line. BPA 
also selectively removes ``danger trees''--trees that could potentially 
grow, fall, or bend into the lines--from the area next to the right-of-
way. We select them for removal based on the overall condition of the 
tree, the stability of the ground around the tree, the tree species, 
and any other defect that might cause the tree to be ``unstable'' and 
likely to fall into the transmission line.
    Vegetation management is done using a number of techniques tailored 
to the unique characteristics of the landscape. Typically manual 
cutting with chainsaws is the primary method, and sometimes mechanical 
cutting is used. We may apply herbicides on smaller trees or 
incompatible brush, or do follow-up herbicide treatments on stumps. We 
manage vegetation in the rights-of-way to achieve a maintenance-free 
period, which tends to be 3 to 4 years on the west side of the 
Cascades, and 3 to 8 years on the east side of the Cascades.
    In 2000, we developed our vegetation management program in 
consultation with stakeholders and the public in a programmatic 
Environmental Impact Statement. Further, before each site-specific 
vegetation management action, we walk through a number of planning 
steps to ensure the activity is tailored to the specific area and that 
site-specific environmental factors are taken into account.
    In addition to our extensive vegetation management program, BPA 
also undertakes regular maintenance of the transmission structures 
themselves. The maintenance work can be as simple as replacing several 
old wood transmission poles with new wood poles. It can also mean the 
more comprehensive rebuilding of entire segments of aging lines with 
new poles, new conductors, and access roads improvements and 
reconstruction. As part of our ongoing maintenance of BPA's 
transmission infrastructure, BPA is working steadily to repair, 
rehabilitate, or replace components whose current condition warrant 
such actions. For example, for Fiscal Year 2014, BPA expects to replace 
over 450 wood pole structures, undertake 75 miles of wood pole line 
rebuilds, and replace steel components on approximately 200 miles of 
lattice steel lines. BPA expects to continue at this pace as long as it 
is needed, which may be for the next several years.
    In undertaking its vegetation management and maintenance activities 
on Federal lands, BPA works to ensure that it is adapting its 
activities to the particular habitat standards and guidelines of the 
particular lands to the extent consistent with the reliability 
standards for electrical transmission. BPA undertakes an environmental 
analysis for all of its vegetation management, wood pole replacement, 
and line rebuilds, and coordinates with the local Federal land 
managers. For example, both the Forest Service and Bureau of Land 
Management were cooperating agencies in the development of BPA's 
programmatic vegetation management environmental impact statement and 
endorsed its adoption and the associated site-specific planning 
framework. For simple wood pole replacements, BPA typically notifies 
individual districts of the planned replacements, and engages with 
local managers if there are specific issues to address. For rebuilds, 
BPA typically invites the local Federal land managers to join as 
cooperating agencies in the environmental analyses conducted, and 
relies heavily on experts from these agencies to inform BPA as to local 
environmental conditions and concerns. While the low-growing vegetation 
management requirements and access road developments necessary for 
reliable electricity infrastructure are not always well-matched to the 
land management goals of a particular area, BPA works hard to try and 
address Federal land manager concerns. For example, we've partnered 
with the Bridger-Teton National Forest to manage our rights-of-way 
while minimizing bark beetle habitat from the ensuing felled trees. BPA 
is also in the middle of working collaboratively with the USFS in 
developing a national permit with associated operations and maintenance 
plan to further detail our cooperative interactions on BPA assets which 
cross USFS National Forests.
    In BPA's experience, coordination and communication between BPA and 
the Federal land managing agencies is key to fostering a mutual 
understanding of our important Federal missions. It is critical that 
land management planning continue to acknowledge and incorporate the 
needs of a reliable energy infrastructure, and that transmission 
operation and maintenance acknowledge and incorporate the needs of 
Federal land management goals.
    Thank you for this opportunity, and I am happy to answer any 
questions you may have.

                                 ______
                                 

    Mr. Tipton. Thank you, Ms. Grimm. Appreciate your 
testimony. I would now like to yield to a colleague from 
Wyoming, Mrs. Lummis, for purposes of introducing our final 
witness.
    Mrs. Lummis. Well, thank you, Mr. Chairman, and I want to 
thank this panel. This is a very, very high-powered panel. And, 
as the last member of a very high-powered panel, I want to 
introduce Mike Easley of Sundance, Wyoming. He is the CEO of 
Powder River Energy Corporation, which is a rural electric co-
op. He has 29 years of experience working for electric 
cooperatives. He started out as a transmission design engineer 
and, of course, now is CEO of a very significant co-op in my 
State. Co-ops, as you know, are non-profits that essentially 
are owned by the same customers they serve.
    Now, in States like Wyoming, we are about half federally 
owned. And some of the States that are represented on this 
committee are more than half federally owned. But, because of 
that, rights-of-way over Federal land are absolutely vital to 
the co-op's mission: delivering affordable and reliable power. 
So the costs associated with unnecessary red tape on Federal 
land gets passed on to their customers.
    Mr. Easley, I am so pleased you are here, because your 
wealth of experience in navigating the Federal bureaucracy 
should help inform our committee about how Federal management 
of rights-of-way can be improved, both for the benefit of 
ratepayers and for the health of the land and the forests that 
surround these rights-of-way. So, welcome. So honored to have 
you here.
    Thank you, Mr. Chairman. I yield back.
    Mr. Tipton. Thank you for that. And, Mr. Easley, we would 
now like to be able to hear your testimony.

   STATEMENT OF MICHAEL E. EASLEY, CEO, POWDER RIVER ENERGY 
CORPORATION, CHAIR OF THE WYOMING RURAL ELECTRIC ASSOCIATION'S 
             MANAGERS' COMMITTEE, SUNDANCE, WYOMING

    Mr. Easley. Good morning, Mr. Chairman and committee. And 
thank you for the kind introduction. I am speaking today on 
behalf of the 11 electric cooperatives in Wyoming. I represent 
them via my chairmanship of the Managers' Group for the Wyoming 
Rural Electric Association.
    Powder River Energy is a member-owned co-op. We have 28,000 
meters that we provide electricity to, over 10,000 miles of 
power line across a territory that covers 16,000 square miles. 
We cover the northeast corridor of Wyoming. Our customers range 
from world-class coal mines, oil and gas, to agricultural-rural 
residential customers.
    Today I am bringing the committee four examples of issues 
that we have had, problems of seemingly arbitrary 
decisionmaking, poor communications, and bureaucratic red tape 
that leads to delays and increased costs to our member-owners, 
and ultimately threaten our co-ops' abilities to keep the 
lights on.
    First, one of our cooperatives, Carbon Power and Light, had 
been conducting regular maintenance on their right-of-way. And 
this was going through the Medicine Bow National Forest. They 
noticed trees that were apparently beetle-kill trees that were 
outside of the right-of-way that were at risk of falling 
through the power line and if that were to have happened, 
starting a very large fire. Carbon contacted the Forest 
Service. And after 2 years of excruciating frustration, they 
were finally able to start their right-of-way clearing project. 
But, unfortunately, it took a 2-year delay before they could 
finally start doing work.
    When you take a look at that, and you think about the risk 
that Carbon was facing, especially when they were told they 
could not take any of the trees until all of these bureaucratic 
hoops were satisfied, the significant risk that the forest 
experienced was really something that folks finally paid 
attention to and were finally able to resolve. But it makes 
little sense, how that Federal process could delay a timely, 
common-sense resolution of the issue. Cut the trees down. Risk 
to life, to property, and forest health, I don't think, were 
taken into consideration.
    What is really disturbing, following this experience that 
we have had with Carbon in Wyoming is another small co-op in 
the Big Horn National Forest. Their co-op's name is Big Horn. 
Big Horn had a similar problem, where they saw trees outside of 
the existing right-of-way that were causing problems. They 
contacted the Forest Service, were told to mark the trees. They 
marked the trees, they were told to cease and desist marking 
the trees. Ultimately, the Forest Service folks met with their 
board on January 29 of this year. They were told the Forest 
Service would get back to the board and the manager. They have 
yet to hear from them. Meanwhile, we have trees in that forest 
that are at risk of falling through the line.
    It is astounding to me that a co-op could actually be held 
liable for damage caused by a tree outside of the right-of-way, 
and at the same time be prohibited from clearing that tree. It 
just makes no sense.
    Wyrulec Cooperative applied to build a three-quarter-mile 
distribution line to extend power to a new customer. This 
distribution line covered about three-quarters of a mile of BLM 
lands. They were told to submit an application. They did all 
the environmental work, they submitted the application. Once 
that was done they were told that it would take 12 months and 
an additional $96,000 to study this. They re-routed the line, 
so it just crossed 50 feet of BLM land, and they were told it 
would cost $96,000 and 1-year time to cross a path of 50 feet.
    Other issues that we had with the BLM right-of-way 
manifests from, I think, a problem of communication and 
coordination between the BLM and the RUS in the processing of 
rights-of-way. This has caused delays for most of our co-ops in 
Wyoming. Specifically, PRECorp has waited several years for 
easements to work their way through a process where one agency 
wants to streamline and the other agency prefers to have a very 
old and outdated form of approving easements and paperwork.
    These are the four examples that I have of what I think are 
inefficient and ineffective ways that some of our Federal 
agencies operate. My hope today is that the testimony can help 
effect some changes. And I stand ready to answer any questions 
that the committee may have.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Easley follows:]
   Prepared Statement of Michael E. Easley, CEO, Powder River Energy 
                              Corporation
    Good morning Mr. Chairman and members of the committee. My name is 
Mike Easley and I am the Chief Executive Officer of the Powder River 
Energy Corporation (PRECorp), a rural electric cooperative based in 
Sundance, WY. PRECorp's mission is to deliver high quality, 
competitively priced electric power and services to our member owners, 
while enhancing the quality of life by providing leadership and service 
in our communities. PRECorp provides 400 MW of power to 28,000 meters 
using 10,000 miles of power line across a territory that covers 16,000 
square miles in Crook, Weston, Campbell, Sheridan and Johnson counties 
in northeast Wyoming. Our member owners are a diverse group, ranging 
from large industrial loads such as the world-class Powder River Basin 
Coal mines, oil and gas fields, to ranchers, farmers, urban residents 
and small businesses in northeast Wyoming.
    I serve as the Chairman of the Wyoming Infrastructure Authority, an 
instrumentality of the State of Wyoming. I also Chair the Wyoming Rural 
Electric Association's Managers' Committee. It is in my capacity of the 
Wyoming Rural Electric Association Managers Committee that I will be 
testifying today and representing the concerns of all Wyoming's 
cooperatives on three very important topics--keeping the lights on, 
reducing forest fire risk, and rights-of-way (ROW) on Federal Lands.
    PRECorp works very hard to develop and maintain good working 
relationships with our Federal agency contacts. We hold regular 
meetings with our local contacts and we work hard to develop 
relationships beyond the local level. Most recently I have had the 
opportunity to work with Neil Kornze, the newly confirmed director of 
the BLM, on issues of BLM right-of-way grants that are unique to rural 
electric cooperatives. Neil's understanding and support while we worked 
through this issue was critical to the successful resolution of this 
matter for PRECorp. Without his involvement and leadership, PRECorp's 
ROW issues might still be lingering.
    That said, my testimony today is directed at problems PRECorp and 
many of Wyoming rural electric cooperatives have experienced with the 
BLM and the Forest Service over the past several years.
    I have four specific examples to offer to the committee today that 
highlight problems of seemingly arbitrary decisions, lack of/or poor 
communication, and bureaucratic red tape that leads to delays, 
increased costs to our member-owners and ultimately threaten our 
ability to keep the lights on.
                     forest service--tree clearing
    First, one of our cooperatives, Carbon Power and Light (Carbon), 
had been conducting regular maintenance and clearing of rights-of-way 
(ROW). Personnel noticed several trees outside of the ROW (Forest 
Service trees) and noted if the trees fell, they would fall into their 
power lines. The cooperative took the initiative to contact officials 
in the Medicine Bow National Forest to bring this problem to their 
attention. Among other things they were told that if a tree outside 
their ROW fell into the lines and caused a fire, the cooperative would 
be held liable for damages! It should be noted that most, if not all, 
of the trees being cleared, or needing to be cleared, were dead due to 
beetle kill and were not viable living trees.
    Carbon had to jump through many bureaucratic hoops, conducting one 
study after another that delayed the clearing of ANY trees for over 2 
years and at a cost of over $1.6 million to their member-owners. 
Because of the delays, the cooperative was not able to clear all of the 
trees needed in one season. We were all very fortunate that a forest 
fire was not ignited by one of these dead trees falling into a wire. It 
makes little sense how bureaucratic Federal processes could delay the 
timely resolution of this issue. Risk to life, property, and forest 
health were not taken into consideration by the Forest Service. It is 
difficult to understand the liability for a Forest Service tree falling 
from outside the right-of-way into a power line could be assigned to 
the cooperative and at the same time that cooperative is prevented from 
cutting the tree by the Federal agency. Common sense would appear to 
dictate otherwise.
    In another similar instance, three Forest Service representatives 
employed in the Big Horn National Forest informed Big Horn Rural 
Electric Cooperative (Big Horn) to mark trees they felt needed to be 
removed and prepare an inventory of the marked trees in both the 
permitted ROW and outside of the ROW. After marking the trees, Big Horn 
was informed by one of the same Forest Service representatives that 
they could not move forward. They were also informed they had marked 
too many trees and then Big Horn was threatened with legal action for 
defacing government property and using the wrong kind of paint when 
marking the trees. Upon submission of the inventory, the Forest Service 
representative stated some of the trees may be ``merchantable'' and the 
Forest Service would need to get with their timber harvest 
representatives. The Forest Service Supervisor met with the Big Horn 
Board of Directors on January 29, 2014 telling them that he would get 
back to them by late February or early March. They have yet to hear 
back from him.
                           blm--rights-of-way
    Wyrulec Company, a cooperative in southeast Wyoming, needed to 
extend a line to serve an oil pipeline pumping station. The proposed 
extension, the most efficient and cost effective route, would have 
crossed three-quarters of a mile on BLM lands. The cooperative was 
given the green light to file the application, (which they did) along 
with the associated environmental work with the BLM. They were then 
told, without anyone from the BLM looking at the proposed extension in 
the field, the BLM needed $96,000 and 12 months to study the 
application.
    Efforts to contact the BLM to invite them to visit the proposed 
project and physically see for themselves what they were asking went 
unanswered. The cooperative, in an effort to meet the needs of their 
member-owners, re-routed the line over 2 miles at a cost of $495,000 
without ever hearing back from the BLM.
    Finally, several of our cooperatives have over the past year 
experienced delays and uncertainty in the approval of new or renewal of 
existing ROW from the BLM, because of what appears to be an interagency 
dispute governing the approval process between the BLM and the Rural 
Utility Service (RUS).
    Instead of accepting a blanket letter from the RUS stating that all 
Wyoming cooperatives are eligible to borrow funds from the RUS, the BLM 
insisted that every new and renewal application to be signed off on by 
the RUS, stipulating that particular cooperative seeking the waiver was 
eligible for RUS financing. This requirement has led to numerous delays 
in either maintenance projects, which threaten the reliability and 
maintenance of the grid, or in establishing new service hook ups. The 
result had been increased costs to electric cooperative members. 
Electric cooperatives operate on a not-for-profit basis. Each and every 
dollar we spend in dealing with bureaucratic red tape increases our 
costs and liabilities at the expense of our member-owners. These are 
folks that we all are supposed to be working for, not against.
    The examples I have given today cause our member-owners (your 
constituents back home) to question the inefficient and ineffective 
ways some of our Federal agencies operate. My hope today is that my 
testimony and those of others persuade you and perhaps officials from 
the BLM and Forest Service that things need to change. Adding more 
rules, regulations and requirements in an effort to address these 
problems is not productive nor do they serve the public interest. There 
are simpler, easier solutions to these problems.
    A first step would be to introduce common sense in the way that 
agencies fulfill their statutory requirements, while keeping in mind 
that they are here to serve the American people, not the other way 
around. Second I would suggest a process that sets clear expectations 
of performance for all parties involved, measures performance against 
expectations, and embraces transparency in presenting overall results.
    Wyoming cooperatives stand ready to be part of the solution to help 
keep the lights on, reduce the chance of forest fires risk, and 
implement a process to properly manage ROW on public lands.
    Thank you for the opportunity to be here today and to speak on 
behalf of all Wyoming's Rural Electric Cooperatives. I would be happy 
to answer any questions.

                                 ______
                                 

    Mr. Tipton. Mr. Easley, thank you for your testimony. And 
thank our entire panel.
    At this point we will begin our questions for the 
witnesses. To allow all of our Members to be able to 
participate, and to ensure that we can hear from all of our 
witnesses today, Members will be limited to 5 minutes for their 
questions.
    After the Ranking Member and I pose our questions, I will 
then recognize Members alternatively, on both sides of the 
aisle, in order of attendance. I now recognize myself for 5 
minutes for questioning.
    Mr. Miller, I think I would like to be able to start with 
you. If you may, can you maybe expand a little more in regards 
to decisions made by the Forest Service or the BLM to move 
forward with the approval of hazardous tree removal, how they 
differ from region to region?
    Mr. Miller. Thank you, Mr. Tipton. Some districts and some 
regions are very cooperative. In general, we need to mark the 
trees and locate them, and simply submit a work plan for their 
removal. Permission is granted, and we can take care of the 
issue in a timely manner. In other cases, we are simply denied 
authorization to remove trees altogether, and in some cases 
there is a lengthy delay in the approval process between our 
submitting the trees for removal and authorization. So, it 
varies.
    In general, I would say cooperation is very good with 
hazard trees. But there are exceptions, and those exceptions 
are troubling, because I think the great danger of hazard trees 
falling into our lines is catastrophic wildfire. And so we are 
very concerned about that.
    Mr. Tipton. When we are talking about that cooperation, I 
guess we would like to be able to have a little more clarity, 
in terms of where you say it does work well. Why are the 
agencies not working together?
    Mr. Miller. I am not sure that I can answer that. It has to 
do with local decisionmakers and their own personal opinions, 
at least as far as I can tell. They seem to be working with the 
same policies and procedures, yet they draw differing 
conclusions.
    So, we are confused about why one district would come up 
with opposition to removing hazard trees, and the other one 
would cooperate fully. It is sort of a mystery to us.
    Mr. Tipton. So that quilt approach, in terms of policy, 
made from region to region, manager to manager, that is why you 
feel legislation might be necessary?
    Mr. Miller. Yes, sir.
    Mr. Tipton. Great. You know, Mr. Easley, it is interesting, 
just visiting on your comments. When you were talking about 
crossing 50 feet, $96,000. Did I hear that correctly?
    Mr. Easley. That is correct.
    Mr. Tipton. What was your actual footprint on the ground?
    Mr. Easley. The length of easement that Wyrulec was 
crossing of BLM land was a 50-foot length of right-of-way 
crossing the BLM land. The rest of the line extension was 
originally three-quarters of a mile on BLM land, and they were 
able to reduce that by rerouting the line and impacting a 
little more private land in order to accommodate that to get 
from the existing line to the oil field load.
    Mr. Tipton. So a lot of money for very little impact.
    Mr. Easley. That is correct, sir.
    Mr. Tipton. Great. You know what? One thing that I am very 
curious about, I know in Colorado we have a great concern on 
this, as well--and I will open this up to the panel, if others 
of you would like to be able to comment on this--when you are 
talking about having a liability outside of your designated 
corridor.
    We have some big blue spruce, and we've got a lot of bark 
beetle kill that is going on right now. What is the actual 
impact, in terms of when you have a tree fall that is not in 
the corridor, which you may or may not be able to effectively 
get in and actually treat and be able to take care of? That 
falls on a line. Who is going to pick up the cost for those 
impacts?
    Mr. Easley. Mr. Chairman, it is my understanding, from what 
we have been told, that the liability would lie with the 
electric cooperatives. So, ultimately, in our model, Mr. 
Chairman, the guy at the end of the line would pick up that 
bill.
    Mr. Tipton. Great. Mr. Neal?
    Mr. Neal. And I will agree with Mike. Utilities have paid 
out for hazard trees that have fallen into the power lines. APS 
has paid for fires, hazard trees, they were bark beetle trees. 
The fortunate part of it, it was only 2 to 5 acres.
    Mr. Tipton. Yes. Now, when you say the electric co-op is 
liable and will pay, you are actually made up of members, 
aren't you? Real people?
    Mr. Easley. Absolutely. And we consider every one of our 
members very real and very important, Mr. Chairman.
    Mr. Tipton. If you are from an area--interesting, looking 
down the list, the expanse of the West, in particular, that we 
are covering right now. You probably have people like we do in 
our district that are having a tough time right now. Will you 
pass on those costs to those ratepayers who are currently 
struggling because of bad management policies that we are 
seeing?
    Mr. Easley. Mr. Chairman, the only people that an electric 
has to pass costs on to are the end customers at the end of the 
line.
    Mr. Tipton. So----
    Mr. Easley. Everybody else----
    Mr. Tipton. So, effectively, what you are telling us is, 
because of bad management policies, inability to be able to get 
in, treat the right-of-ways, impacts that can fall in from out 
of the right-of-way areas, we are actually going to be 
punishing people through higher rates because of bad policy?
    Mr. Easley. Yes, Mr. Chairman. My members and also the 
constituents of everybody here in this room.
    Mr. Tipton. Well, thank you for that. My time has expired. 
I would now like to recognize our colleague from New Mexico, 
the Ranking Member, Mr. Grijalva.
    Mr. Grijalva. It is the Enchanted State, Mr. Chairman. But 
I am from Arizona.
    [Laughter.]
    Mr. Grijalva. Mr. Markham, in your testimony you highlight 
the importance to protect the sage-grouse habitat, but also the 
measures presented in the draft EIS would cause significant 
cost to several cooperatives, but not all. Specifically, the 
cost with having to bury--one of the alternatives, bury the 
power lines.
    What do you consider to be durable mitigation measure for 
the sage-grouse?
    Mr. Markham. Doable mitigation? Did I hear correct, doable 
mitigation measures?
    Mr. Grijalva. Durable.
    Mr. Markham. Durable.
    Mr. Grijalva. That is going to last.
    Mr. Markham. OK. Well, as far as going back, I think that 
we have our overhead lines that have been in place for years. 
We need to be able to maintain those right-of-ways the way that 
we have existed. If you put in underground power lines, you are 
going to be disturbing the habitat much more, I believe, than 
with your overhead lines.
    And so, we just ask that we have the ability to access that 
infrastructure to do our legally required maintenance.
    Mr. Grijalva. OK.
    Mr. Markham. And we can work with the land agencies on 
minimizing and mitigating any impacts of our vehicles and work 
that we have to do on the line.
    Mr. Grijalva. I ask that, Mr. Markham, because the effort, 
large-scale effort being undertaken by BLM right now to 
conserve sage-grouse and potentially preclude them from being 
listed as a species--so the final listing determination is 
going to hinge on the strength of the conservation measures in 
the State plans. The reason I bring that up is you testified 
that burying power lines would cost $400,000 per co-op member 
for the Harney Electric and $241 million total for Central 
Electric.
    Has there been any calculation to the cost of the 
alternative? Let's say having to comply with an ESA if the 
sage-grouse is listed. It is not listed at this point.
    And side question, you know, it is a shock number, $400,000 
per co-op member. Is that cumulative over a period of time, or 
one shot?
    Mr. Markham. No, that is a one shot. But then you have your 
ongoing costs of maintenance of those lines in the future.
    Mr. Grijalva. So you are telling me that, as a consequence 
of BLM's planning, that somebody would receive a $400,000 rate 
increase for that particular mitigation?
    Mr. Markham. Well, conceivably, yes, because that is the 
kind of expense you are looking at, underground transmission 
and distribution over in Harney Electric service territory. And 
so, in essence, it would put that co-op out of business. 
Because members can't pay that kind of----
    Mr. Grijalva. So complying with ESA if the sage-grouse is 
listed, have you calculated what that cost would be?
    Mr. Markham. No, we have not.
    Mr. Grijalva. So, it could be more than $400,000, one shot?
    Mr. Markham. What is that? I am sorry.
    Mr. Grijalva. It could be more than the $400,000 increase 
at one shot?
    Mr. Markham. Yes, Yes.
    Mr. Grijalva. If it is listed.
    Mr. Markham. Yes, it could, yes.
    Mr. Grijalva. So your point earlier that it would be good 
to try to work through this now would----
    Mr. Markham. Yes.
    Mr. Grijalva [continuing]. For all parties concerned would 
be important.
    Mr. Markham. Yes.
    Mr. Grijalva. Mr. Neal, give me some examples--as people 
talked about--some specific examples where, when you have two 
different regional district or local-level land managers 
providing you with a different opinion.
    Mr. Neal. I can give you an example. When I was here 8 
years ago, when I worked with the Tonto National Forest, it was 
probably the most difficult forest to work with to get 
approvals. We could not maintain the utility corridor. And, as 
Randy mentioned, it is an arbitrary line between two ranger 
districts, because the district ranger is the authority there. 
And we couldn't remove trees.
    Our company spent $3 million to keep going back to the same 
facility to remove trees within the right-of-way that were all 
Ponderosa pine that will eventually grow into the power lines 
anyway. And so you are eventually going to have to remove them 
anyway, as time goes on.
    There was a change in leadership in the Tonto in the last 3 
years. The person that is the forest supervisor there today is 
Neil Bosworth. And he is one of the most accommodating forest 
supervisors. He looks at us as a partner to work with and to 
manage the vegetation. And that is really what we need to get 
to, sir, is that common-sense approach that Mr. DeFazio 
mentioned earlier. But, you know, when you have that change in 
leadership, those are the examples that we have to deal with, 
as manager of that vegetation on the corridor.
    Mr. Grijalva. Thank you, Mr. Chairman.
    Mr. Tipton. Thank the Ranking Member for his questions. Now 
I'd like to recognize Mr. Daines for his questions.
    Mr. Daines. Thank you, Mr. Chairman. Mr. Easley, in your 
testimony you talk about how utilities would like more 
flexibility to treat at-risk trees surrounding the transmission 
right-of-ways. I touched base with some of our Montana electric 
co-ops before this hearing, and I heard they have the same 
challenges of protecting the integrity of transmission lines in 
Montana. Because, frankly, the Forest Service can do a lot 
better job of treating these at-risk trees.
    Mr. Easley, in your testimony you talk about this 
bureaucratic Federal process which delays the timely resolution 
of these issues. Well, I can tell you we deal with these issues 
in Montana forest-wide in our State. In fact, on the House side 
we passed H.R. 1526, the Restoring Healthy Forests for Healthy 
Communities Act, which would restore active management of our 
forests, and reduce the risk of catastrophic wildfire and 
damage to utility lines.
    In fact, the Missoula Electric Co-op has dealt with these 
challenges associated with lines through Federal forests and 
hazardous fuels. After increasing frustration with the lack of 
ability to prevent fire damage and the right-of-way, the co-op 
had submitted a request to replace a number of miles of 
overhead lines with underground in December. Just this month, 
the Forest Service has finally indicated they are going to 
evaluate that request.
    The Forest Service has recognized the problem in its 
agreement with the co-op, but has delayed their action to begin 
the process of finding a solution. The result is increasing 
fire risk, more costly liability for the utility, and less 
reliability for the lines. And one solution, which is an aspect 
of this bill that we passed, H.R. 1526, is allowing State and 
local governments and individuals in local communities to be 
more involved in managing their public lands.
    So, with that as background, I would like to see and hear 
some contrast around these regulatory hoops that have to be 
jumped through, contrasting what it is like to go through 
Federal processes versus State and local processes.
    Mr. Easley. Congressman, our experience has been that the 
closer that you are to the people, the faster and the easier 
the solutions are. Typically, if we have issues on State land, 
our relationships are such that we make a phone call and it is 
a very quick resolution. A decision can get made. That doesn't 
mean that we don't work very hard to have relationships with 
our Federal stakeholders, as well.
    I don't think there is any question that people understand 
the danger of forest fires. It is taking that awareness and 
compelling people to actually make a decision that is 
difficult. And I believe, at the State level, they are 
empowered to make those decisions. I can't tell the difference 
in why. Maybe how they report to a Governor, versus reporting 
up through a larger bureaucracy. But we have much more response 
at the State level than we do with the Federal agencies.
    Mr. Daines. Well, there are many of us back here who 
believe that we would be better served to move more of this 
power and accountability back to States. Because, as we are 
hearing, they are more responsive and more accountable to 
getting the job done.
    Mr. Easley. Congressman, I think States get it right.
    Mr. Daines. Thank you. Now, Mr. Markham, do you have a 
thought or an example, again, the difference between working 
through a Federal process versus State and local?
    Mr. Markham. Well, definitely I concur with Mr. Easley 
there, that the State goes much faster. We get delayed in the 
processes with the Federal agency. As I had mentioned, we are 
talking up to 4 years for us in permitting. We certainly have 
not had those issues with the State.
    But there was just one example that I was going to cite, 
and I am sorry, I just forgot it. But I will stop with that. 
Yes, I believe from the State level it would be much more 
efficient.
    Mr. Daines. So let me ask a witness. What should be done to 
bring more accountability to these Federal agencies? Anybody 
have a thought on that?
    Mr. Easley. Congressman, I would like to think that common 
sense would actually rule the day. But if common sense doesn't 
rule the day, then I believe there should be a serious look at 
action from the home office here, to help these agencies get 
the type of alignment they need to support the guy at the end 
of the line and the co-ops that are trying to run electric 
utilities.
    Mr. Daines. And just--yes, Mr. Miller? Or Mr. Markham?
    Mr. Markham. Yes. I believe--and it has been said here--
there has to be some streamlined process with specific 
timelines in place. I could see if we were putting in a new 
line. But to just do maintenance on a system that is required 
not only by law, but by the permit that we hold--but to have 
specific timelines. And if those timelines are not met, then 
there are consequences for that.
    Mr. Daines. Yes, I am just struck. We would be out of 
business if we had, you know, 3-, 4-, 5-, 6-year delays in 
terms of trying to get something resolved. That is just 
unacceptable.
    I think I am out of time here, Mr. Chairman. So, thank you.
    Mr. Tipton. Thank you, sir. I would now like to recognize 
the Ranking Member, Mr. DeFazio, for his questions.
    Mr. DeFazio. Thank you, Mr. Chairman. To the Bonneville 
Power Administration, my understanding is that since BPA has 
rights-of-way that date from the 1930s and 1940s, that there is 
some problem with the recognition of these as rights-of-way by 
the Federal agencies. I mean there is a power line there, they 
can see it, you built it, but, hey, they never officially 
recognize it. Or, if they did at the time, they don't have the 
paperwork. Is that right?
    Ms. Grimm. Yes, sir. There are occasional opportunities 
where we will have disputes where our pre-existing rights may 
be unrecognized, either because they are not in the form or of 
the type that the agencies are looking for now. And they will 
ask us to re-apply for our pre-existing rights.
    Mr. DeFazio. OK. And what does re-applying for your 
existing rights consist of?
    Ms. Grimm. It consists of an application to either get a 
special use authorization from the Forest Service or a Federal 
Land Management Policy Act right-of-way from the BLM.
    Mr. DeFazio. That would be as if you were building a new 
power line, even though you are not.
    Ms. Grimm. Correct.
    Mr. DeFazio. So they could see it, but they say, ``No, 
you've got to start from scratch.'' Right?
    Ms. Grimm. My understanding is they are concerned that they 
don't have the authorization in place for us to be there, and 
their expectation is that we will apply. And we have actually 
managed to do a coordination, where we will agree on what we 
will do, as a permit, without actually having to re-apply.
    That is partly what the national permit that we are working 
on is, let's put aside the disagreement about the existing 
rights, and recognize it is a system that is in place. And here 
is what we need to do, and how we can agree on what the 
operation and maintenance will be, because that is typically 
what the issue is. It is not so much the rights, it is the how 
are we operating and maintaining, and how do we coordinate with 
them, so that they are not surprised, as land managers.
    Mr. DeFazio. And what about what PacifiCorp is proposing 
here, with this basically, vegetative management that is 
appropriate for that region, that area, but is also requiring 
less maintenance? Do you do any of that?
    Ms. Grimm. Yes, we do try to actually promote low-growing 
vegetation that actually, in many cases, can benefit some of 
the local habitat. Because if you are looking in a forested 
area, sometimes this early stage forest--early stage habitat 
that we need to maintain at the low levels under the lines is 
actually beneficial.
    Mr. DeFazio. Exactly. The rarest form of forest in western 
Oregon, according to the noted scientists, Jerry Franklin and 
Norm Johnson, is seral, early seral. And early seral doesn't 
get real tall. So you would actually be providing a tremendous 
net benefit, were you providing early seral underneath your 
lines, compensating for the fact that we don't harvest trees 
any more and create early seral by not applying herbicides, 
because some private lands, they use herbicides.
    PacifiCorp, if you could just--your experience with this--I 
can't remember what you called it, but the integrated 
vegetation management, or whatever it was.
    Mr. Miller. I wrote the best practices for the 
International Society of Arboriculture for integrated 
vegetation management. And the idea is cover-type conversion 
from species that may at some time in their life grow up and 
interfere with the facilities, to others that, at no time in 
their life will. And so, the idea is that we work with nature, 
allow these compatible cover types to take over a right-of-way, 
so nature does the work that we would otherwise have to do 
ourselves with intervention, be it mowing, be it spraying, or 
what have you.
    So, the idea is, over time, to develop a compatible plant 
community that is cost-effective and can contribute 
environmentally, as you pointed out, with early seral forests. 
Prairie cover types are another one that is endangered in many 
areas of the country. Meadows. These all provide habitat for 
song birds, for pollinators, and others.
    So, it is possible, through cover-type conversion, and 
through integrated vegetation management, to have 
environmentally beneficial plant communities that are also 
compatible with the use of the facilities.
    Mr. DeFazio. And couldn't that be established through a 
national policy on the part of both of the Federal agencies in 
question here today?
    Mr. Miller. I would hope so. Government, industry, 
environmental groups, the public, all working together, I think 
we could do something like that, a common-sense solution, make 
it happen.
    Mr. DeFazio. OK, thank you. Thank you, Mr. Chairman.
    Mr. Tipton. Thank the gentleman for his questions. Now I 
would like to recognize Mr. Mullin for his questions.
    Mr. Mullin. Thank you, and thank you all for being here. It 
is really sad that you even have to be here, to be honest. You 
are trying to provide a service to people like myself. I live 
in a very rural part of Oklahoma, and I understand what co-ops 
have to do, and I understand how hard it is to get the power to 
us. But it is almost--no, it is not almost--it is absolutely 
ridiculous that you guys are having to be here to explain what 
the hindrances are to abide by a contract that you are required 
by law to uphold, but yet you can't get it done.
    And the biggest challenge that I have had in my personal 
business was having to fight the Federal Government to provide 
common-sense jobs to individuals that this administration is 
constantly saying they are trying to create jobs for. But yet, 
what is happening here is that you have bureaucracy at its 
absolute best.
    And, David, you bring up a point about moving a pole 6 
feet--6 feet? How long have you been trying to get this pole 
moved?
    Mr. Markham. Well, I can't remember how long it has been, 
exactly.
    Mr. Mullin. It has been that long?
    [Laughter.]
    Mr. Markham. Yes, yes. It has been long enough that, for my 
right-of-way manager, it has created enough frustrations that 
he has had to come to me with the issue. So----
    Mr. Mullin. Have you figured what the cost would be, is 
this U.S. Forestry or BLM that is requiring you to do this?
    Mr. Markham. This is on Forest Service.
    Mr. Mullin. So the Forest Service, their extra requirement. 
Do you know what the cost would be?
    Mr. Markham. Just to move one pole, our cost is probably 
less than $10,000 to do the whole job.
    Mr. Mullin. What they are requiring you to do, or on normal 
circumstances?
    Mr. Markham. Oh--no, yes. Under normal--our cost just to 
relocate the pole 6 feet. At the most--you know, at the most, 
it would be, if we are replacing the pole, too, $5,000, 
$10,000, at the most.
    Mr. Mullin. Now, Mike, you had mentioned that the BLM--is 
that right--was wanting to charge you $96,000?
    Mr. Easley. Congressman, this was for Wyrulec Co-op. After 
they did their routing and their own archeological work, per 
the agency's request, they submitted all that, and then they 
were told it would take $96,000 for them to pay the BLM to 
conduct their study and a year timeframe after what they have 
already----
    Mr. Mullin. So, $96,000 just to do a study for 50 foot of 
property.
    Mr. Easley. That is correct.
    Mr. Mullin. I would be curious to what 50 foot of property 
is actually worth.
    Mr. Easley. Well, there are some ranchers----
    Mr. Mullin. I mean I know New York and--it is high. But 
where I am from, I have a lot of land. If I get $96,000 per 50 
foot, I might move to the city. I am kidding; I would never do 
that.
    Mr. Easley. There are some ranchers behind me that I really 
can't talk about, that their land couldn't be worth $96,000, 
because if they could sell it for $96,000 for 50 foot, they 
would all be happy to do that.
    Mr. Mullin. Right, absolutely. We would. And I throw myself 
in that category.
    But I just find it interesting that the biggest fight that 
we are having here is with this administration, I am assuming, 
because, David, you had made mention that they are streamlining 
solar and wind, right?
    Mr. Markham. Yes.
    Mr. Mullin. What do you mean by streamlining?
    Mr. Markham. Well, they are pushing their permits through 
quickly, through whatever process that we would hope that would 
be used with us, so that we can, you know, continue to maintain 
and upgrade our system for reliability. And so, when they were 
telling us that they have been directed that wind and solar 
take precedence on those permits over ours, that delays our 
ability to make our infrastructure reliable.
    Mr. Mullin. Now, if I am not mistaken, they have to have 
power lines, too, right?
    Mr. Markham. Yes, correct.
    Mr. Mullin. Are they using yours, or are they putting in 
new ones?
    Mr. Markham. Well, most of the time they end up building 
them, or we build them for them, and they tie into ours.
    Mr. Mullin. But before they tie in, you are talking about 
new----
    Mr. Markham. Yes, exactly.
    Mr. Mullin [continuing]. New transmission lines. And here, 
you guys are just wanting to maintain the ones you have.
    Mr. Markham. That is correct.
    Mr. Mullin. So, not to put you in a tough spot, but I am 
going to, anyways--do you feel like this is agenda-driven?
    Mr. Markham. Absolutely, I do.
    Mr. Mullin. Would the panel agree with that?
    Mr. Easley. Congressman, I think that we have good people 
out there, and they want to do the right thing. Common sense, 
to me, dictates what that is.
    Mr. Mullin. Common sense in Washington doesn't exist. I 
have looked for it, and I haven't found it yet.
    Mr. Easley. And without a sense of direction, and the 
proper leadership, I don't think they are able to find that 
common-sense point.
    Mr. Mullin. I agree with that. Unity and allowing us to 
know what the rules are, we can comply. It is hard to comply 
with shifting winds.
    Thank you for being here. And, Chairman, thank you for 
allowing us--or allowing me to go shortly over.
    Mr. Tipton. Thank you for your questions. I now recognize 
Mrs. Lummis for her questions.
    Mrs. Lummis. Thank you, Mr. Chairman. I have a question for 
Mr. Easley. And I want to see if I understand the situation 
before I ask the question.
    Now, as I understand it, Federal regulations exempt rural 
electric co-ops from paying rental fees for rights-of-way on 
BLM lands. Is that correct?
    Mr. Easley. Congressman, that is correct.
    Mrs. Lummis. OK. And to qualify for that exemption from 
paying rental fees you have to be eligible for financing from 
the Rural Utility Service. Is that also correct?
    Mr. Easley. Yes, that is correct.
    Mrs. Lummis. OK. There has been a system in place that 
allowed for just RUS to certify that co-ops are eligible for 
RUS financing. And then that would be the criteria by which the 
BLM would make the determination. Is that also correct?
    Mr. Easley. Yes. Congressman, historically, that system was 
done on a case-by-case, permit-by-permit hand-off between RUS 
and the BLM.
    Several years ago the RUS took the initiative to streamline 
their bureaucracy, and looked for a way to provide blanket-type 
authorizations to certify that co-ops were eligible for 
financing. Their idea of streamlining and providing a blanket 
approval process, that did not dovetail in with the BLM's need 
to have each project approved. And thus, a logjam of permits 
because of the differing processes and strategies between those 
two agencies.
    Mrs. Lummis. So why--when it worked before to have these--
they did use the blanket for a while.
    Mr. Easley. Previously, it was a one-on-one--each permit 
was approved individually. And then, when RUS tried to 
streamline their processes and become more efficient, that 
initiative broke the BLM processes.
    Mrs. Lummis. Now, how has the inability of BLM and the 
Rural Utility Service to work this out impacted co-ops in 
Wyoming and your customers?
    Mr. Easley. It has delayed permits for, at least in 
PRECorp's case, up to several years. Last year I was able to 
bring this to the attention of Neil Kornze, who, when I told 
him the story, he was surprised.
    Mrs. Lummis. Yes.
    Mr. Easley. And, I mean, it didn't make sense to him. and I 
think we were able to push through the logjam and finally get 
the logjam broken. But the process has not been fixed. There 
still needs to be some sort of an official agreement, which I 
understand is being worked on between BLM and RUS. I believe 
that agreement has been in play for well over a year now, and I 
hope that at some point in the very near future, perhaps with 
this committee's and our testimonies' help, that they could 
bring this to resolution for the benefit of our co-op members.
    Mrs. Lummis. Well, what is the BLM's justification for not 
accepting RUS's determination of who is eligible?
    Mr. Easley. Congressman, I wish that I had the answer to 
that.
    Mrs. Lummis. How can it take 2 years to resolve this? They 
are eligible or they are not. So how can it take 2 years?
    Mr. Easley. I don't know.
    Mrs. Lummis. Well, has the BLM expedited approval in any 
cases?
    Mr. Easley. This is an interesting case. For Big Horn Co-
op, the BLM was needing a service. And Big Horn said, ``Well, 
we can't build''----
    Mrs. Lummis. Electrical service?
    Mr. Easley. They needed electrical service.
    Mrs. Lummis. Oh, the BLM needed electrical----
    Mr. Easley. The BLM needed a service, and they were able to 
expedite a permit for----
    Mrs. Lummis. For themselves.
    Mr. Easley. Yes, that is correct.
    Mrs. Lummis. So they expedited the determination of RUS 
eligibility when it was their own service they were requesting. 
But if it is anybody else, this logjam has developed?
    Mr. Easley. That is correct. Their permit was not caught up 
in the logjam.
    [Laughter.]
    Mrs. Lummis. Well, thank you, Mr. Easley. I need to digest 
it, so I will ask other questions in round two. I yield back.
    Mr. Tipton. Thank you for your questions. Mr. Cardenas, I 
now recognize you for your questions. Five minutes.
    Mr. Cardenas. Thank you very much, Mr. Chairman. Can 
someone at the witness table give your feedback to this 
committee on the issue of how do we create a better balance 
when it comes to protecting our Federal lands, when it comes to 
forest fires, et cetera? What kind of relationship should we 
have between private industry when they have power lines and 
rights-of-ways that we have granted to them, so--when it comes 
to the maintenance thereof and/or the awareness and the 
communication between the Federal Government and the private 
industry?
    Mr. Easley. Congressman, I think that the key is proper 
alignment, alignment of purpose and alignment of action. And to 
the extent that the relationships that we need at the local 
level have alignment and have a proper path to action, I think 
the parties can successfully do the right thing.
    When the system is broken, as it appears it is at this 
point, it is going to require some very strong leadership to 
create that sense of alignment and that path to action.
    Mr. Cardenas. Thank you. So, for example, when it comes to 
the Forest Service and BLM providing clear guidance on--and 
timely approval of vegetation management activities and 
transmission on the upgrades, how is that happening today? Well 
or not so well? Can you give me some examples of that?
    Ms. Grimm. Thank you, Congressman. I can give some examples 
of where it is working well in the BPA area, particularly for 
things like rebuilds that we have. If we can get over the 
hurdle of the discussion about pre-existing rights or not, we 
actually work very well and do a joint environmental document 
for the rebuild work that we have, where we get the expertise 
of a local manager to identify things like wildfire issues and 
other access concerns.
    So, we work to jointly do an evaluation. And that can tend 
to really help make sure that we are on the same page for 
either the analysis or the types of issues that need to be 
addressed to protect the communities.
    Mr. Cardenas. Can anybody give me an example of something 
that you could recommend, or the feedback process between 
private industry and the Federal Government, the agencies, when 
it comes to how do you communicate with each other and make 
each other aware of how to create better practices?
    That is basically what I am getting at, is that 
communication availability strong, or is it something that we 
have a lot of work to do?
    Mr. Neal. In my opinion, again, it gets back to the 
individual decisionmaker that you are working with at a local 
level. I will give you--this isn't a West thing--I am going to 
give you a couple examples that I got from Duke Energy, because 
once they knew I was testifying, they reached out to us, 
because they have an issue in Florida.
    One was Ocala National Forest, where they meet with the 
local decisionmaker, they go out in the field, they discuss 
their vegetation management activities that they are going to 
perform. And that process takes 2 weeks, and they are just 
going back out and performing vegetation management.
    The other example was Apalachicola National Forest, where 
they weren't allowed to cut trees at all until the NERC 
standard FAC003 came into play. Then they had to do an EA that 
cost them $200,000. It took them 2 years to get that approved. 
And during that time, the Forest Service did a controlled burn, 
burned down their facility pole. It was out of power for--it 
said 6 hours here. And it was a compliance line that was 230 kV 
and above.
    Mr. Cardenas. So, for example, you just gave an example 
where an agency time element seemed to create an issue, and 
then an actual event occurred, such as a fire, and then they 
lost a facility. So again, communication. Did the Federal 
Government just say, ``Oops''? I mean was there formal 
correspondence back and forth on at least admittance of why 
that happened? And--or more and equally important is whether or 
not anybody was willing to say that they admit that there are 
better practices and whether or not they are attempting to do 
something to arrive at better practices, in reality.
    Mr. Neal. I think the communication was there, from my 
understanding. The interesting part was the forester I was 
talking to is--you know, if somebody destroys one of their 
poles, they bill them. So they billed the Forest Service for 
that pole, and they refused to pay.
    On the other side of that, if they were the ignition source 
and started the fire, the utility is going to pay for it, 
because it is in their permits.
    Mr. Cardenas. Yes, go ahead.
    Mr. Miller. Congressman, I can't help but think that it may 
not expedite the process at all, but if there was an appeals 
process, some place that we could turn to have decisions 
examined, whether or not they meet a continuity of purpose, and 
policies that are consistent throughout the country, if local 
land managers knew that their decisions were going to be 
subject to scrutiny, it might be helpful. Not saying that it 
would always work out in our favor, but at least we could have 
an appeals process so that decisions may not be so arbitrary as 
they seem to be, from our perspective.
    Mr. Cardenas. Yes. Well, I would hope and pray that the 
appeals process isn't Congress.
    Mr. Miller. I am not suggesting that, no.
    Mr. Cardenas. Then only God can help you there.
    [Laughter.]
    Mr. Cardenas. But that is a great point. And, again, I 
think that best practices is something that both government and 
private industry need to communicate with each other, in order 
for us to arrive at better practices in real life.
    Thank you very much, Mr. Chairman. I yield back my time.
    Mr. Tipton. Thank the gentleman for his questions. Now 
recognize Mr. Gohmert for his series of questions for 5 
minutes.
    Mr. Gohmert. Thank you, Mr. Chairman. I do appreciate 
everybody being here. As someone who has national forests--a 
couple of them--in my district in east Texas--it is not the 
area of Texas that is flat and has mesquite, so we know a lot 
about trees.
    But one of the things that we have seen in recent years, we 
had a 2-year drought in east Texas, the worst in my lifetime, 
and we had a lot of trees die in our national forests. And I 
could not believe we couldn't get a decision from this 
administration to say, ``Go ahead and cut the dead trees before 
they get diseased, before they get bugs.'' It was shocking. It 
would have meant millions of dollars for the Federal Government 
and for local government. We could not get them to make a 
decision. And, as you know, knowing trees as you do, it is not 
a good idea to just let dead trees sit out there until they 
fall over, diseased or eaten up.
    Then, to follow up some of the questioning from my 
colleague, I didn't realize, but, you know, if the Forest 
Service or the BLM negligently fail to do their job by allowing 
you to go in and eliminate hazardous trees, and something goes 
wrong because BLM or Forest Service didn't do their job and let 
you out there quickly enough to eliminate the hazard, I 
understand you pick up the tab for their negligence. Is anybody 
aware of that happening? Yes, sir?
    Mr. Markham. Yes. We--Congressman, we had a situation. Our 
neighboring co-op, Midstate Electric Co-op in central Oregon, 
they had a situation where they were waiting for a response to 
get approval to remove this endangered tree. It did end up 
coming down and taking down a power line. It started a major 
forest fire. And, ultimately, it cost the co-op millions of 
dollars. And that is a true-life story.
    Mr. Gohmert. So they had to pay, even though they were 
ready to go, and it was the government's negligence in failing 
to give them permission to take out a hazardous tree. That is--
--
    Mr. Markham. Yes, sir.
    Mr. Gohmert. All right. It is staggering. Well, does 
anybody have a reason that you can give why a utility should be 
strictly liable for the negligence of the government?
    Mr. Easley. Congressman, no.
    Mr. Gohmert. Any other comments on that issue? Because 
obviously, the ratepayers are the ones that will either pay for 
it, or you go out of business, as a co-op. Yes, sir?
    Mr. Easley. Congressman, just to highlight that point, the 
Wyoming co-ops have been told that we would be liable if a tree 
falls into the line of the right-of-way. Now, thank God that we 
haven't had a catastrophic fire as a result of that. But just 
last year, Big Horn Co-op took the forest representatives and 
showed them where a very small fire had started at the base of 
a pole, because the tree was in the line. Fortunately, we had a 
wet spring last year, and the fire was just grass around the 
pole.
    And that example, in itself, happened and occurred prior to 
the Forest Service folks coming to the Big Horn board this 
year, and getting even more dialog with the co-op. And, 
ultimately, still, nothing has been done. So, it is----
    Mr. Gohmert. So they did come out and look at--they could 
see that it was a problem, and they still didn't----
    Mr. Easley. But it was just a really small fire around the 
pole, it wasn't the big disaster. But----
    Mr. Gohmert. So it has to be a really big fire to get their 
attention.
    Mr. Easley. Apparently.
    Mr. Gohmert. Well, in that case, what would you say was the 
biggest problem in getting this addressed?
    Mr. Easley. Again, I believe that good people are there. I 
believe they understand the issues. But the path to action, for 
whatever reason, they are limited----
    Mr. Gohmert. Well, that is what I am asking, if you have an 
idea of what that reason may be. Why it takes so long to get 
them to move.
    Mr. Easley. I wish that I--if I knew the answer to that, 
that would be a lever that I would try to pull. But, 
apparently, absent some direction and maybe clear 
instructions----
    Mr. Gohmert. Well, do you have a suggestion for clear 
instructions?
    Mr. Easley. Well, I--being a small government person, one 
more additional regulation would have its consequences, as 
well. But absent--if we can't get common sense to work, and we 
can't get good relationships to work, and we can't get things 
to work when Forest Service supervisors show up at a board 
meeting and talk to the directors, I think, at that point, what 
else is left besides some strong mandates that would at least 
relieve the utility from having liability for a fire?
    Now, maybe if it was strict liability on their part for 
failure to act, maybe that would get folks' attention.
    Mr. Gohmert. OK, thank you very much.
    Mr. Tipton. Thank the gentleman. Now recognize Mr. Labrador 
for his questions.
    Mr. Labrador. Thank you. Thank you all for being here. Mr. 
Markham, you have stated in your testimony that Central 
Electric has been waiting 4 years and spent $45,000 for the BLM 
to renew their 32 permits you submitted. Has the BLM indicated 
if or when the permits you submitted might be approved?
    Mr. Markham. No, sir. We have not received any feedback on 
that.
    Mr. Labrador. So, have you made inquiries to the agency?
    Mr. Markham. Yes, we have been in communication with them, 
yes.
    Mr. Labrador. And have they been responsive to your 
inquiries?
    Mr. Markham. Not very responsive. But----
    Mr. Labrador. What do you mean by that?
    Mr. Markham. I guess I will pass this example along here. I 
laugh about it, it is really not an issue. But we have a lot--
--
    Mr. Labrador. Well, sometimes all you can do is laugh when 
you see incompetence; I understand.
    Mr. Markham. Well, we have an issue there that we have been 
working with the Forest Service on. My right-of-way manager has 
been emailing and leaving telephone messages, with no response 
over a number of days. Once it was found out--determined that I 
was testifying here, our phones at the office started ringing 
off the hook to find out what was going on. It really shouldn't 
take me coming here and testifying before this committee before 
our phones start ringing.
    Mr. Labrador. Maybe we should have you testify every week. 
Maybe you will start getting responses to your questions.
    [Laughter.]
    Mr. Markham. Well, maybe every other week.
    Mr. Labrador. So, when permit approval or renewal from the 
BLM takes a lengthy amount of time, what kind of aversive 
impacts can it have on your company's ability to provide safe 
and reliable electricity to your customers?
    Mr. Markham. Congressman, safety is the number-one priority 
to the public and to our members. And that is the ultimate. 
But, of course, it can increase our costs, because you have 
delays, which creates additional labor. You have costs of 
material that don't decrease in price.
    But we have a real reliability issue that comes down to 
safety. And so, when you are dealing with infrastructure that 
needs to be replaced, and it can get 30, 35 below, which it did 
in December in central Oregon, and if that infrastructure has 
been delayed getting replaced, and we have a power outage 
during that time, you just don't go out and repair the power 
and bring it back up to everybody. You have cold load pick-up. 
It could take a week to 2 weeks to get power back up. And you 
have done tremendous damage, not only risking somebody's life, 
but their pipes are going to freeze, other problems. And so, it 
is a severe safety issue.
    Mr. Labrador. OK, thank you. Mr. Miller, you have discussed 
this a little bit, the FERC relations mandate up to $1 million 
a day penalty for utilities that allow trees to grow into 
transmission lines. That is correct, right?
    Mr. Miller. That is correct, Congressman.
    Mr. Labrador. Can you explain how some decisions by Federal 
land managers your company works with are preventing PacifiCorp 
from fulfilling that mandate?
    Mr. Miller. The mandate has never prevented us from 
fulfilling that mandate. Often what they say is that you can 
get the minimum clearance necessary to fulfill the mandate. It 
is not the most efficient way to go. It costs our ratepayers 
more, and it doesn't fulfill what I would consider to be the 
best practices for vegetation management.
    But I do not recall a single case where they have said, 
``You cannot fulfill the strict requirements of that mandate.'' 
They are actually quite lax. They say, ``You keep trees from 
contacting''--right now they say, ``Keep trees from contacting 
interconnect transmission lines.'' As of July 1 there will be a 
buffer zone that we can't encroach upon. But there has never 
been such a case. But that doesn't mean that we were doing the 
right thing, or serving our customers the best----
    Mr. Labrador. So what would be the right thing?
    Mr. Miller. The right thing would be what we would consider 
to be integrated vegetation management, to take trees that at 
some time in their life could interfere with the power lines, 
remove them, and try to cultivate a plant community comprised 
of species that at no time in their life would allow that plant 
community to grow in and do the work that we would necessarily 
have to do otherwise, so we don't have to keep coming back 
repeatedly and pruning trees, taking the top out of them.
    Trees that have no future, you know, a 100-foot tree 
underneath a 50-foot power line isn't going to work. We have to 
artificially keep coming back and pruning it. Better to remove 
it, and plant--or allow low-growing species of shrubs, grasses, 
flowers, and that sort of thing, which----
    Mr. Labrador. And why won't they let you do that?
    Mr. Miller. We are mystified. Many do. But we are confused 
about why others would not. They simply, I don't think, 
understand the concepts of integrated vegetation management or 
the effect that their decisions may have on the greater 
national good, in terms of service reliability.
    Mr. Labrador. Excellent. So how important is it that land 
management decisions affecting transmission lines not be left 
to independent assessments made by individuals who may not have 
electric or vegetation management training?
    Mr. Miller. That is correct.
    Mr. Labrador. How important do you think that is, that you 
actually have people with that experience?
    Mr. Miller. I think it is critical. We would never hire 
someone that doesn't have that experience to work on our 
system, yet we are beholden to decisions made with people that 
seem, at least from our perspective, to lack that training.
    Mr. Labrador. Thank you very much. I yield back my time.
    Mrs. Lummis [presiding]. The gentleman yields back. The 
Chair recognizes the gentleman from California, Mr. McClintock.
    Mr. McClintock. Thank you, Madam Chairman. Mr. Miller, 
let's continue on Mr. Labrador's line of questioning. You said 
that many forest managers do not allow you even to remove a 
tree under a 50-foot power line; you have to come back and keep 
topping it. But others do allow that. That tells me this is 
discretionary among the different managers that we have running 
our forests. Is that accurate?
    Mr. Miller. Yes, Representative. From my perspective, that 
seems to be an accurate----
    Mr. McClintock. All right. I think that we need to start 
holding these managers accountable for their actions. I would 
like to know their names. I would like to know the names of the 
forest managers who have forbidden this sort of practice, which 
is obviously discretionary to their own judgment. These are 
people of extraordinarily poor judgment, and we need to know 
who they are, so that we can start removing them from a 
position of public trust, where they are menacing the public 
interest with their poor judgment. Can you provide us such a 
list?
    Mr. Miller. Yes, Representative, we could do that. We did 
that sort of thing about 10 years ago, when we were working 
with Federal agencies. And it wound up not solving the greater 
problem.
    Mr. McClintock. I would like each of the different 
witnesses here to provide us with the names of the forest 
managers that are using their discretion--abusing, I should 
say, their discretion in such a manner. We have to start 
holding these folks accountable. You know, one of my greatest 
frustrations is we hear these stories, and it is always 
faceless managers that are never accountable. We need to start 
holding them accountable. So would you be kind enough to do 
that, all of you? Great, thank you.
    Mr. Markham, I presume you have a great deal of experience 
just observing the management of our forest lands, because of 
your association with them. How would you describe the Federal 
land-use principles of forest management on these public lands? 
Would you say that it is more the greatest good for the 
greatest number in the long run? That was Gifford Pinchot's 
vision of the U.S. Forest Service. Or has it become something 
very different, benign neglect, basically look but don't touch? 
How would you describe the overall principles?
    Mr. Markham. Congressman, during part of my testimony, when 
I mentioned looking back at the mission statements, I went to 
look at the mission statements of the BLM and the Forest 
Service. As I mentioned, I saw words in there about serving, 
about serving people, responsibility, those sort of things. And 
back when co-ops, we were getting lines out to rural areas, it 
was a great relationship.
    But somewhere, somehow, over the last 10 years, is where we 
have seen a change. And it has become more difficult. And I 
truly don't know if it is because, as we have a turnover in 
land managers, that their interpretation of the Federal 
policies and rules are different, but it definitely has not 
made us a priority to keep our reliable service and safe 
service to our members. And so, it definitely has changed from 
what the mission statements say right now to what we are 
actually seeing out in the field.
    Mr. McClintock. OK. Do any of the companies have a 
different perspective on that? Do you generally agree with that 
assessment?
    Let me ask you this. How do these policies for removing 
dead or hazardous trees differ from 10 years ago. You sort of 
touched on that already. You said that the attitude had changed 
dramatically over the past 10 years. Was there a time 10 years 
ago when these hazardous trees were routinely removed without 
obstructions from the Forest Service to the Bureau of Land 
Management?
    Mr. Neal. I would say in our case, Mr. McClintock, we were 
able to remove dead trees as part of our maintenance program. 
And then, when we had a bark beetle infestation into Arizona 
that lasted 3 years, we ended up having to do a phase one 
consultation on hazard trees outside the right-of-way. And then 
we had to do an environmental assessment for all maintenance 
activities on our utility corridors.
    Mr. McClintock. Before you could even address the question 
of dead timber.
    Mr. Neal. Correct.
    Mr. McClintock. How would you describe the overall health 
of our forests, compared to 10 years ago? Are they improved or 
declined?
    Mr. Neal. In my opinion, sir, they have declined.
    Mr. McClintock. Mr. Markham?
    Mr. Markham. Congressman, in my opinion, they have 
declined.
    Mr. McClintock. Mr. Easley?
    Mr. Easley. I would agree with the previous comments, sir.
    Mr. McClintock. Mr. Miller?
    Mr. Miller. I would also say they have declined. And bark 
beetle issues are becoming very pronounced, in terms of forest 
health issues.
    Mr. McClintock. In response to questions over new wind and 
solar integration, one of you mentioned that it requires 
separate lines. Why is that?
    Mr. Markham. Congressman, that was me. These require 
separate lines to integrate with, many times, co-op lines, or 
it could be with BPA's lines, depending on----
    Mr. McClintock. You can't use existing transmission lines 
for wind and solar. You have to put in new lines because----
    Mr. Markham. Well, they could tie into existing lines. But 
there always has to be an extension from the development to get 
it to where it is tying into. So there are going to be new 
lines.
    Mr. McClintock. I see. Thank you.
    Mrs. Lummis. The gentleman yields back. The Chair now 
recognizes the gentleman from California, Mr. LaMalfa.
    Mr. LaMalfa. Thank you, Madam Chairman. All of you are in a 
pretty difficult spot. You have mandates and regulations to 
ensure the safety of your lines through these areas. That makes 
sense. So, you have not got the cooperation to do what you 
really need to do.
    Mr. Miller, you were talking earlier about the minimum way 
to do it--in my words--and then the right way to do it. And so, 
I think you found that in some areas you do have the ability, 
depending on what unit you are in, to do it the correct way. I 
mean it is common sense. You called it integrated vegetation 
management. That is wise. And it only took me 90 seconds to 
understand the concept in a short amount of time in the room 
here, yet you feel like you can't get the managers of the 
forest, BLM or whatever, to understand or to hear you.
    Is that correct? They won't hear you, or they can't? Are 
they bound by regulations? Because what you are talking about 
is a corridor that needs to be managed a certain way to be 
wise. You don't want to keep topping the same tree over and 
over again. It doesn't make sense. Would you expand on that a 
little bit?
    Mr. Miller. I want to emphasize that the vast majority of 
land managers with whom we work get it and they cooperate. 
There are a minority who seem to view transmission corridors as 
sacrifice areas in the forest, and seem to look at it as their 
duty to protect the lands from the type of work that we need to 
do. So there is----
    Mr. LaMalfa. A sin has already been committed, if you want 
to call it that.
    Mr. Miller. Right.
    Mr. LaMalfa. The lines are there, they have been approved, 
they are not going away.
    Mr. Miller. That is correct.
    Mr. LaMalfa. Unless they hope to make them go away. Is that 
in the back of the minds, or something?
    Mr. Miller. I really can't speak for them. And, again, it 
is a minority of people, but I think they look upon utilities 
with suspicion, and they look upon the corridors, at least from 
my perspective, as sacrifice areas.
    Mr. LaMalfa. Except when they need their own line put in.
    [Laughter.]
    Mr. Miller. Well, yes. Yes, sir. It is frustrating for us. 
And we don't really understand it, because we think that we 
have a good system, and we also know that we have the support 
of land management officials here, within the beltway.
    Mr. LaMalfa. And so who is on the hook if a fire is caused, 
and they blame the transmission lines, who is on the hook for 
millions of dollars worth of damages?
    Mr. Miller. Invariably, it is the utility.
    Mr. LaMalfa. Yes. So you are in a Catch-22 on both ends of 
the equation. You want to do what you know you should be doing, 
but are delayed in doing so, or prevented from doing so.
    Mr. Miller. We are still liable, right. Yes, sir.
    Mr. LaMalfa. Mr. Markham, I want to just come back to a 
simple one. Why did you have to move the pole 6 feet?
    Mr. Markham. There was a new service that we needed to drop 
in, so it required moving the pole 6 foot.
    Mr. LaMalfa. Oh. So it wasn't a requirement by a regulator, 
it was more of you helping your customer with a need.
    Mr. Markham. Right. That is correct, Congressman.
    Mr. LaMalfa. And so an archeological survey would be needed 
to see if there is a particular type of lizard or something, 6 
feet away, or----
    Mr. Markham. I have read the email, and----
    Mr. LaMalfa. Some ruins?
    Mr. Markham [continuing]. It never explained, Congressman, 
what it was for. It just said that an archeologist would have 
to come out, perform a study and a shovel probe.
    Mr. LaMalfa. If you surveyed people on the street that are 
power users and pay the bills, how do you think they would view 
the wisdom, or the----
    Mr. Markham. Well, I think they would as shocked as I was 
when I read the type of delay because that was going to be 
required before we received a permit.
    Mr. LaMalfa. OK. I appreciate this panel traveling the way 
you have had to to do this. As Mr. Mullin mentioned, it is kind 
of, actually, a little bit embarrassing for us that are 
supposed to be governing, to see that this has to be done. So, 
one thing we will be following up with will be we have seen, 
you two gentlemen, that there has been very cooperative areas. 
You have some forest units that work very well, very 
collaboratively, and others that do not.
    So, would you be in favor, or help in a push to have a 
consistency amongst all of them, that it isn't just up to one--
--
    Mr. Miller. Very much so. If that was an outcome that came 
out of this hearing, or this process, I think it would be very 
favorable.
    Mr. LaMalfa. And you have seen maybe that was that way 
years ago, but now, in the last few years, an attitude has 
changed. Different managers come in, or revolving door 
managers, and the last one doesn't know what the previous one 
was doing. What does that look like to you?
    Mr. Neal. I think part of it, sir, is that as mentioned 
earlier, it is a lack of training. They don't understand that 
electrical grid, and they don't understand the results of 
vegetation management. And there are people that get that 
because they have that type of background.
    Mr. LaMalfa. Why does it take more than 90 seconds to 
understand that?
    Mr. Neal. It doesn't take more than 90 seconds.
    Mr. LaMalfa. OK, thank you.
    Mr. Neal. But----
    Mr. LaMalfa. I have to yield back, my time is over. But I 
appreciate it.
    Mrs. Lummis. The gentleman yields back. The Chair now 
recognizes the gentleman from Missouri, Mr. Smith.
    Mr. Smith. Thank you, Madam Chairwoman. It is great to see 
you there. Before I get to my questions, let me first say that 
I am deeply impressed by the electric utilities' ability to 
keep the lights on in rural America. In spite of all the 
Federal regulation being handed down by this administration, we 
have heard today about the tremendous liability placed on 
utilities by the Forest Service and the Bureau of Land 
Management's failed, inconsistent policies, policies that are 
filling our public lands with dead trees that pose an extreme 
fire hazard, and risk disrupting our electrical grid.
    Layer on top of that a new rule from the EPA on the waters 
of the United States that may require Federal construction 
permits to build power lines over every puddle of water they 
cross; greenhouse gas rules on both new and existing power 
plants that seek to eliminate coal-fired electric generation, 
which happens to power 84 percent of my congressional district; 
and closed-door endangered species listings that, as was 
mentioned in this testimony turned in today, could require 
utilities to spend millions burying power lines, and you have a 
perfect storm of government regulation that threatens to 
disrupt the generation, transmission, and distribution of 
electricity.
    I am eager to work with the members of this committee and 
the witnesses gathered here today to develop creative solutions 
to the problems that mismanaged public lands pose to our 
electrical grid.
    My first question is for Mr. Markham. In your written 
testimony you brought up numerous examples of bureaucratic 
delay and regulatory confusion that have created significant 
problems as you try to provide reliable electricity at the 
lowest cost possible to your member owners. Have you ever tried 
to figure out what the cost of regulation is to your 
ratepayers? And do you think it accounts for 10 or 20 percent 
of the cost of keeping the lights on, or more?
    Mr. Markham. Congressman, I haven't completely figured out 
what that cost is, to add in all the expenses, but I will tell 
you right here that I believe it to be somewhere around 50 
percent.
    Mr. Smith. About 50 percent?
    Mr. Markham. Yes.
    Mr. Smith. Wow. Do you think Congress can pass legislation 
that could help ease that pain of the 50 percent?
    Mr. Markham. I think, in this case, what we are talking 
about here today, Congressman, yes, I do believe so. There are 
some things in the Northwest that are specific that we have, a 
lot of costs going into Fish and Wildlife initiatives, those 
sort of things.
    But, yes, we came here, and I don't remember how many years 
ago, to try and get some of these things changed, where the 
accountability--and we have been talking a lot about 
accountability for delays that potentially could cause a forest 
fire by a tree falling that--why should co-ops be responsible 
for that, that maybe it is time to look at some type--revisit 
some type of mandate, so that we are not burdened with that 
liability.
    Mr. Smith. When I travel across the eighth congressional 
district in southeast Missouri, the number-one concern that I 
hear from individuals over and over is out of control 
government regulations, whether it is the coal power plant 
rules, wood-heating stoves. I view it as a war on rural 
America, in fact, with a lot of the different regulations 
coming forward.
    But an interesting number that really concerns me is that 
in 1960 there were 22,000 pages of rules and regulations; 54 
years later, currently, there are over 174,000 pages of rules 
and regulations. What I believe is that it is time for Congress 
to be the branch that actually passes the laws, instead of the 
agencies promulgating every aspect of our way of life.
    And with your testimony there, saying that these government 
regulations affect 50 percent of the cost, that cost has to go 
on to someone else. And those other people are the ratepayers 
and my consumers, our consumers, the citizens that I represent. 
And the best thing that we can do is to reform these 
regulations and make sure that we have a government that works 
for the people, not the people working for the government.
    With that, Madam Chairwoman, I am very good.
    Mrs. Lummis. I thank the gentleman. He yields back. And the 
gentleman from Arizona has some follow-up questions.
    Mr. Grijalva. Thank you very much, Madam Chair. Two 
requests, I think.
    First is, Mr. Markham, for the committee, some verification 
as to the 50 percent, half the cost, to ratepayers. And some 
verification to the $400,000 per customer figure that you 
mentioned, in terms of burying the lines. Just, I think, those 
figures are so important that if we could get some verifiable 
information from yourself, that would be very helpful to the 
committee.
    It was addressed to Mr. Miller, but I think the whole 
committee answered my colleague's question about naming names. 
As you provide that to the committee, I think it would be 
important that we just don't besmirch an individual because of 
one particular incident, or a personality conflict, that we 
document what deliberate action that land manager or that 
agency took to prevent the delivery of reliable, accessible, 
and affordable power to those rural areas.
    So, I would, in the spirit of fairness--not just naming 
names, which is an interesting precedent for this committee, 
and an interesting request that you have in front of you, or 
mandate, but I think you need to tell us what were those 
deliberate actions that prevented you from doing that.
    We have talked regulatory. We have talked to the management 
issue, resource issues. For the entire panel, we heard a lot 
about those two things today, resources. Given the fact that--
and I agree with it, that the right-of-way is a subsidy 
extended so that we make sure the co-ops deliver to rural 
America the power that they need through the Federal lands, 
what is the impression about the delays, the lack of 
uniformity, different management prerogatives?
    The resource side of it, staffing, losses caused by 
shrinking budgets and appropriations, and a slower response 
time. Do you think there is a resource issue that this 
committee should deal with, as well? For the entire panel.
    Mr. Easley. Congressman, I think in today's world, every 
business is faced with doing more with less. And, as the CEO of 
our company, we have continually tried to get more value out of 
our existing resources for our members.
    Mr. Grijalva. So it is not a resource question.
    Mr. Easley. I think, in the cases that I have cited, the 
Big Horn case, Carbon, Wyrulec, I don't believe it is a lack of 
resources. I believe it is a lack of will to accomplish what 
needs to be done----
    Mr. Grijalva. And a liability issue, which you want part of 
the legislation----
    Mr. Easley. Yes.
    Mr. Grijalva [continuing]. That exempts you from any 
liability, regardless. Correct?
    Mr. Easley. I did mention that as a potential way to shift 
the conversation and put more of the responsibility back on the 
agency, Congressman.
    Mr. Grijalva. Regardless of the resource base that they 
have.
    Mr. Easley. Yes.
    Mr. Grijalva. Interesting. Any other response?
    Ms. Grimm. In our experience there are some capacity 
limitations. When we are asked to engage with local managers, 
sometimes they do tell us, ``We don't have the people right now 
to get back to you'' in either a survey or analysis. So we 
often do have to wait until they are--free up.
    Mr. Grijalva. Thank you.
    Mr. Neal. What we have done, through cost-share agreements, 
is fund positions with the BLM and Forest Service, and that 
does help expedite the process, because they will reach out to 
the people that need to be part of the approval process. So 
that does help, but it falls on the utilities to pay for 
funding that position.
    Mr. Grijalva. And that position, as I understand it with 
APS and the Forest Service in Arizona, it is specific to the 
energy questions that come up. Right?
    Mr. Neal. Well, it directly regards any maintenance 
activities----
    Mr. Grijalva. OK.
    Mr. Neal [continuing]. Or new construction projects that we 
have going on.
    Mr. Grijalva. Thank you. Yield back, Madam Chair, and thank 
you very much for the indulgence.
    Mrs. Lummis. The gentleman yields back. The Chair 
recognizes herself for one last question. This panel has 
traveled a long way to be here today, and we thank you kindly 
for your testimony.
    My question is this: Does anyone have a burning desire to 
say something that you wish that we had asked during the last 
couple of hours?
    [No response.]
    Mrs. Lummis. Well, I will consider that a very successful 
panel, then. Thank you very much to this wonderful panel of 
witnesses.
    Members of this committee may have additional questions for 
you, and we would ask you to respond in writing. The hearing 
record will be open for 10 business days to receive these 
responses. With tremendous gratitude, on behalf of this 
committee, I thank the panel and excuse you. We will now hear 
from our second panel of witnesses.
    [Pause.]
    Mrs. Lummis. Thank you, gentlemen, for joining us today. We 
are pleased to be joined by Mr. Jim Penna, Associate Deputy 
Chief of the National Forest System for the U.S. Forest Service 
here, in Washington, DC; and Mr. Ed Roberson, Assistant 
Director for the Renewable Resources and Planning for the U.S. 
Bureau of Land Management here, in Washington, DC.
    Each of the witnesses' written testimony will appear in 
full in the hearing record, so I ask the witnesses to keep your 
oral statements to 5 minutes, as outlined in our invitation 
letter to you, and under our committee rules.
    I now recognize Mr. Jim Penna for 5 minutes.

STATEMENT OF JIM PENNA, ASSOCIATE DEPUTY CHIEF, NATIONAL FOREST 
          SYSTEM, U.S. FOREST SERVICE, WASHINGTON, DC

    Mr. Penna. Thank you, Madam Chairman, Ranking Member 
Grijalva, and the rest of the committee. My name if Jim Penna, 
I am the Associate Deputy Chief of the National Forest System 
for the U.S. Forest Service. Thank you for inviting me here 
this morning--it still is morning--to testify and answer your 
questions about the proper management of electricity rights-of-
way on the National Forest System lands. You have my official 
testimony, as you mentioned, for the hearing record.
    The electric transmission permittees and the Forest Service 
share two principal goals. First is enabling the transmission 
of energy to rural and urban communities across the Nation; and 
second is protecting national forest from wildfire. To that 
end, I want to share with you our efforts and challenges in 
three areas.
    First, I want to tell you what we have been doing in order 
to increase appropriate consistency in managing vegetation 
within power line corridors, and address imminent vegetative 
threats to power lines. In January of this year we released a 
national desk guide for vegetation threats to power lines 
within power line corridors. That desk guide explains imminent 
threat, and makes clear that pre-approval is not required to 
eliminate imminent threats to power lines. The guide uses 
forest policy and references industry standards to create a 
framework for consistency and right-of-way vegetation 
management among our ranger districts and national forests.
    In addition, later this year we hope to have an updated 
memorandum of understanding signed between the Edison Electric 
Institute and all Federal land management agencies. We also 
encourage an open-door policy at all levels of the agency, so 
that permittees can raise and resolve issues with our staff at 
any level. We strive to create a culture of responsiveness. I 
believe these are important steps in that direction.
    Second, I want to emphasize that permittees here today are 
our partners. Together we can address some of the major 
challenges associated with wildfire risk. We know how wildfire 
can devastate a forest. We also understand what it means when 
communities lack reliable energy. Secretary Vilsack understands 
this firsthand, and personally was involved in orchestrating a 
first-ever summit between electric utilities and our agency 
leadership to look at how we can work together beyond the 
right-of-way corridor. We are now beginning to see examples 
from that partnership that we hope will result in thinning 
national forests to create more sustainable stand conditions so 
that, when wildfires do occur, their impacts are minimized on 
both the national forests and to utility infrastructure.
    As an example of cooperation, the U.S. Forest Service is 
developing a national permit with associated operations and 
maintenance plans to further detail our cooperative 
interactions with the Bonneville Power Administration assets, 
which cross national forests.
    Last, while we are making significant strides in addressing 
these challenges, as noted in the written statement, our 
capacity to respond is limited by the resources that we have 
available. We look forward to a discussion with the committee 
to look at opportunities to enhance those capacities through 
the retention of fees or other means.
    We also enjoy an overall positive working relationship with 
transmission partners, and look forward to working together to 
continue to accomplish our mutual goals, providing electricity 
to communities across the Nation, and protecting the forest 
landscape we all treasure.
    Madam Chairman, thank you, and at this point that concludes 
my statement. And I would be happy to answer any questions you 
may have.
    [The prepared statement of Mr. Penna follows:]
   Prepared Statement of Jim Penna, Associate Deputy Chief, National 
                   Forest System, U.S. Forest Service
    Chairman Hastings, Ranking Member DeFazio, and members of the 
committee, thank you for the opportunity to appear before you today to 
provide the Department of Agriculture's views on Proper Management of 
Electricity Rights of Way on National Forest System Lands.
    The nearly 193 million acres that comprise the National Forests and 
National Grasslands are located in 42 States and Puerto Rico and 
comprises 9 regions of the United States. The Mission of the Forest 
Service is to sustain the health, diversity and productivity of the 
Nation's forests and grasslands for present and future generations. 
Electric Transmission line Rights-of-Way across the National Forest 
System are critical for meeting the needs of the Nation and rural 
America. The Department is committed to support the resilience and 
sustainability of rural America and ensure a well maintained 
infrastructure is in place to support those communities. The Forest 
Service permits some 18,000 miles of electrical transmission lines 
across the National Forest System, ranging from 1 kV residential lines 
that connect homes to the electric grid to 500 kV transmission lines 
that move power within and across States.
    Forest vegetation in portions of the National Forest System is 
extremely susceptible to large wildfires, which endanger communities 
and impact watersheds and pose a considerable threat to power line 
structures. Today, I will focus on how this risk of wildfire affects 
utilities, electrical power and the reliability of the electrical grid.
    The Agency and utilities have become increasingly concerned about 
ensuring electricity transmission rights-of-way and the areas just 
beyond the rights-of-way are appropriately maintained to manage the 
risk of wildfire. The Forest Service has established a couple of 
partnerships with electric utilities beyond the rights-of-way limits to 
implement thinning prescriptions for tree harvest and appropriate 
natural and activity \1\ fuel management to change and reduce the 
behavior of wildfire adjacent to and near the transmission line. The 
intent of these treatments is to remove enough of the stand structure 
so that the residual stand structure causes the fire to drop from the 
tree canopy to the ground, where the flame lengths are 2 to 4 feet and 
wildland fire crews can safely contain the fire with hand and machine 
fire line, thereby reducing the risk of line damage and power 
transmission interruption.
---------------------------------------------------------------------------
    \1\ The combustible material resulting from or altered by forestry 
practices such as timber harvest or thinning Dictionary of Forestry--
Society of American Foresters.
---------------------------------------------------------------------------
    The Agency reports 113 wildfires igniting from direct contact 
between power lines and trees or the arcing of electricity from the 
power lines to vegetation in 2013. In 2012, the Agency documented 232 
wildfires igniting from power line corridors. Fires that burn into or 
ignite from power line corridors place a significant economic burden on 
rate payers and American taxpayers through higher agency fire 
suppression and rehabilitation costs, industry replacement of damaged 
power line infrastructure and the cost of purchasing or rerouting power 
and reliability for local communities, in addition to the loss of power 
critical for domestic and public service needs.
    In response to potential wildfire impacts to and from power lines, 
the Forest Service released in December 2012 a National Desk Guide for 
vegetation maintenance of electric transmission lines. This document 
provides guidance for the development of appropriately consistent 
vegetation management in the Operation and Maintenance plans as 
required by the permit. A key element of the Desk Guide is a reemphasis 
of the responsibility of utilities to immediately remove vegetation 
that poses an imminent threat to power line infrastructure. The 
National Desk Guide emphasizes that where transmission lines face 
imminent threat from vegetation, utilities may treat that vegetation 
without waiting for Forest Service approval; however, notification to 
the Forest Service is required. Later this year the Department 
anticipates signing a revised interagency Memorandum of Understanding 
(MOU) with the Edison Electric Institute which will set consistent 
vegetation maintenance standards between Federal land management 
agencies and utilities.
    Also, in order to address the challenge of assuring appropriate 
consistency in managing threats to power lines, the Forest Service 
continues to meet with the Western Utility Group (WUG) on a regular 
basis. Between the WUG and the Forest Service a process has been 
devised and Regional key contacts identified to address issues and 
concerns with location and project-specific maintenance requirements. 
In addition, the National Office has an open door policy for addressing 
issues and concerns that are either interregional or cannot be resolved 
locally. The Agency Lands and Realty Management Directorate continues 
to be involved in resolving specific issues and Agency-wide challenges 
to ensure appropriate consistency and proper right-of-way management. 
The key to ensuring that power line corridors are well maintained is 
the development and implementation of operating and maintenance plans. 
These plans specify and authorize entry and vegetation removal 
standards needed for long-term permit management. Given current agency 
funding and staffing capacity, currently, over 25 percent of the 
agency's power line permits are expired and less than half of the 
permits have current operating and maintenance plans. The Department 
has identified energy transmission as a priority within the Agency's 
Lands and Realty Management budget line and we make as much progress as 
we can within that capacity. The process for developing a vegetation 
management plan (part of the operation and maintenance plan) should not 
be a cumbersome one. While an environmental analysis is required, the 
agency understands that by issuing the permit, there is an implied 
commitment to allow the permittee reasonable access and capability to 
perform their required maintenance within the framework of existing 
law. These plans should be developed at the time of permit issuance and 
reviewed annually at the beginning of the maintenance season.
    In addition to working proactively with utilities in reducing and 
eliminating vegetation and fire risks, many forest supervisors work 
with utilities in wildfire pre-suppression planning. The utilities 
participate actively as part of a potential wildfire interagency 
incident management team in wildfire suppression scenario drills and 
pre-season preparation. The Department's intent is to encourage as much 
of this type of coordination as possible.
    The Department recently embarked on an initiative to look at 
reducing fire risk beyond the right-of-way limits. The Secretary of 
Agriculture convened the Western Utilities Summit last spring (2013) 
with power company executives and State public utility regulators to 
explore partnership opportunities for increasing the pace and scale of 
forest restoration and fire mitigation work. Pilot projects where 
utilities are contributing to reducing their risk and the fire risk 
within fire-derived ecosystems have begun. As an example, the Xcel 
energy partnership with national forests of the Colorado Front Range 
will provide funding for treating the live and dead fuel component of 
stands outside of the corridor. Furthermore, as a result of the dialog 
from the Summit, utilities and regulators, along with the Forest 
Service, have begun a detailed analysis of the economic benefits of a 
vegetation-management partnership to companies and rate payers, so they 
can decide if these investments in forest restoration and fuels 
reduction beyond the corridor limits are wise investments for their 
rate payers and investors to manage wildfire risk.
    The Department estimates that there are almost 7,000 miles \2\ of 
transmission lines in the West traversing National Forests with 
moderate to high fire risk. As drought, extreme heat and high wind 
conditions persist across large geographic areas; the potential for 
multiple wildfire events to impact electric reliability is significant. 
(The States with the most miles of transmission lines traversing high 
wildfire hazard ecosystems are Arizona and California.)
---------------------------------------------------------------------------
    \2\ USDA Forest Service.
---------------------------------------------------------------------------
    The Department strongly endorses a robust, well maintained, utility 
infrastructure to service rural and urban America and is working to 
reduce the risk of catastrophic wildfire to both the forests and 
critical infrastructure. In addition, the liability cost, both social 
and monetary, associated with wildfire ignitions originating from 
electricity transportation are a focal point for avoidance and 
reduction. The Department is actively committed to that goal.
    Mr. Chairman and Ranking Member DeFazio, this concludes my 
statement and I would be happy to answer any questions you may have.

                                 ______
                                 

    Mrs. Lummis. Thank you, Mr. Penna.
    I now would like to recognize Mr. Ed Roberson for 5 
minutes.

  STATEMENT OF ED ROBERSON, ASSISTANT DIRECTOR FOR RENEWABLE 
RESOURCES AND PLANNING, BUREAU OF LAND MANAGEMENT, WASHINGTON, 
                               DC

    Mr. Roberson. Thank you, Madam Chairman and Ranking Member 
Grijalva and members of the committee. Thank you for letting me 
testify, or giving me the opportunity to testify today. I am Ed 
Roberson, I am the Assistant Director for Resources and 
Planning for the Bureau of Land Management.
    As you know, ma'am, we manage about 245 million acres of 
Federal land, according to multiple use and sustained yield. In 
one of those uses, the BLM works closely with thousands of 
utility companies to manage rights-of-way for transmission and 
distribution of electric power. We value these partnerships, 
and the vital services that electric utilities provide.
    The BLM administers over 15,000 authorizations for electric 
transmission and distribution, ranging from low voltage to 500 
kV lines. Unwanted vegetation in and near utility rights-of-way 
can pose risks to infrastructure--trees that make contact with 
power lines can cause power outages or fires or pose threats to 
public safety, private property, natural resources. Utilities 
must manage vegetation near their transmission and distribution 
lines to prevent black-outs and wildfire, and BLM takes its 
responsibilities in managing and administering these rights-of-
way seriously.
    When issuing a right-of-way grant to a utility, BLM 
includes an analysis of the activities necessary for ongoing 
maintenance and operation of those transmission lines. The BLM 
also includes standard terms and conditions for vegetation 
management agreed upon by both the agency and the right-of-way 
holder.
    Under the terms and conditions in its grant, a utility 
company may conduct certain maintenance activities, such as 
trimming, pruning, or weed management without further 
authorization. Utility companies can often obtain BLM 
authorization to remove hazardous trees through a streamlined 
NEPA process. For major actions beyond the scope and terms and 
conditions in the grant, BLM approval is needed. These actions 
may require additional analysis, depending on the resources 
affected, the action to be taken, and the previous analysis 
that was completed.
    The BLM strongly encourages early and ongoing communication 
about vegetation management concerns, to make sure that there 
are no surprises. We recognize the value of advanced planning 
for future maintenance needs of utility companies, and we take 
every opportunity to work collaboratively with our stakeholders 
to address those needs.
    The National Cohesive Wildland Fire Management Strategy 
represents a collaborative approach to restoring and 
maintaining resilient landscapes, creating fire-adapted 
communities, and managing wildfire response in a complex 
environment. The strategy highlights the importance of working 
with communities to identify values and infrastructure, 
including electric transmission facilities, which are 
prioritized for hazardous fuel work.
    Electric transmission rights-of-way can be an important 
component of a network of fuel breaks that contributes to a 
more resilient landscape. The BLM is committed to protect 
people, property, and resources from wildland fire. Hazardous 
fuels projects help BLM to protect communities and resources, 
and help utilities to protect their infrastructure. We view 
utilities as an important partner in helping to accomplish our 
mutual goal of mitigating the risks posed by wildland fire.
    Along with the other agencies and Edison Electric, BLM also 
looks forward to signing a new MOU later this year that 
formalizes the cooperative approach to management of integrated 
vegetation, as was discussed on the first panel. The MOU 
facilitates a variety of mutual goals, including reliable 
electric service, safety, reduced risk of wildfire, streamlined 
administrative processes. The MOU includes a set of integrated 
vegetation management practices, and prioritizes cooperation, 
timely communication, and consistent management. The parties 
are currently working toward renewal of this MOU.
    The BLM also works closely with utilities that hold 
multiple rights-of-ways, including Arizona Public Service and 
Idaho Power, to establish master agreements that provide 
standard terms and conditions to enhance consistency across BLM 
offices, and create greater efficiency and predictability for 
utility operators. The BLM values our partnership with 
utilities, and we will continue to work to further the 
collaboration and improved communication to accomplish our 
shared goals.
    Thank you for the opportunity to be here, and I would be 
glad to answer any questions.
    [The prepared statement of Mr. Roberson follows:]
  Prepared Statement of Ed Roberson, Assistant Director, Resources & 
    Planning, Bureau of Land Management, Department of the Interior
                              introduction
    Thank you for the opportunity to provide the Department of the 
Interior's views on the management of electricity rights-of-way on 
Federal lands. The Bureau of Land Management (BLM) works closely with 
thousands of public, private, and cooperative utility organizations to 
manage rights-of-way (ROW) for the transmission and distribution of 
electrical power. The BLM values these partnerships and the vital 
services that electric utilities provide for local communities and the 
Nation.
    The BLM manages roughly 245 million acres of Federal land according 
to its multiple use, sustained yield mission. As one of many uses of 
BLM-managed public lands, the BLM has issued thousands of miles of 
rights-of-way for electricity transmission and distribution under the 
Federal Land Policy and Management Act (FLPMA) and other authorities. 
Currently, the BLM administers over 15,000 authorizations for electric 
transmission and distribution facilities, ranging from low-voltage 12 
kilovolt (kV) lines to high-voltage 500 kV lines and related 
infrastructure.
    The growth of vegetation within utility rights-of-way can, in some 
cases, pose risks to the infrastructure needed to provide a continuous 
supply of electrical power. Trees can fall or otherwise make contact 
with overhead power lines, sometimes resulting in power outages or 
fires, which pose threats to public safety, private property, and 
natural resources. Ground fires can create heat damage to facilities or 
burn wooden power poles. To provide a dependable supply of electricity, 
utilities must manage vegetation near their transmission and 
distribution lines to prevent blackouts and wildfires. The BLM takes 
its responsibility for the administration of these rights-of-way 
seriously and values the opportunity to work with utility companies to 
serve our communities, and works simultaneously to meet its obligations 
for the management and protection of natural and cultural resources on 
the public lands.
                 vegetation management in rights-of-way
    When issuing a right-of-way grant to a utility company, the BLM 
completes an analysis required by National Environmental Policy Act 
(NEPA) and other statutes, including consideration of activities 
necessary for the ongoing maintenance and operation of transmission 
lines. The BLM includes standard terms and conditions for the 
management of vegetation, agreed upon by both the agency and the right-
of-way grant holder, when issuing the right-of-way grant. In addition, 
the analysis may consider other resources or activities appropriate for 
the location or management needs of a particular right-of-way.
    Under the terms and conditions typically included in right-of-way 
grants, a utility company may conduct certain activities after 
notifying the BLM, but without requiring further BLM authorization. 
These activities include minor trimming, pruning, and weed management 
to maintain the ROW or facility. BLM authorization, typically through a 
permit, is needed prior to the cutting and removal of any timber or 
vegetative resources that have market value. The utility company can 
often obtain BLM approval for the removal of hazard trees through a 
streamlined NEPA process, such as a categorical exclusion. Before the 
utility company conducts major actions within the ROW, but beyond the 
scope of the terms and conditions in the ROW grant or actions outside 
the ROW boundary, BLM approval is needed. These actions may require 
additional environmental analysis. In general, the degree of analysis 
required for a specific vegetation removal action depends on the 
resources affected, the scope of the action to be taken, and the 
analysis that had been previously completed. To facilitate efficiency, 
the BLM strongly encourages early and ongoing communication with our 
utility partners regarding vegetation management needs and concerns.
    The BLM appreciates any opportunity to work collaboratively with 
all our stakeholders and partners, including utility companies, and 
recognizes the value of advance planning for future maintenance needs 
when possible. Ongoing communication and coordination are also critical 
to ensuring that both the BLM and the utility can respond to 
undesirable vegetation in a timely manner.
                       hazardous fuels management
    The National Cohesive Wildland Fire Management Strategy represents 
a collaborative approach to restoring and maintaining resilient 
landscapes, creating fire adapted communities, and managing wildfire 
response in a complex environment. The BLM is committed to protecting 
people, property, and resources from wildland fire, and uses a 
proactive approach to treat hazardous fuels. In fiscal year 2013, the 
BLM completed nearly 290,000 acres of hazardous fuels reduction 
treatments, including thinning, salvage, and prescribed burns. Because 
the factors that cause increasing hazardous fuel loads cross 
jurisdictional boundaries, the Department prioritizes that highest 
priority treatments in the highest priority places. The 2015 DOI Budget 
for Wildland Fire Management also includes $30 million for resilient 
landscapes. This cross-cutting program will provide the opportunity to 
target specific landscapes, including areas outside the wildland-urban 
interface, and enhance integration of activities between fire and non-
fire programs toward shared restoration and ecological objectives.
    The BLM routinely works with partner organizations to engage in 
land and watershed restoration, community preparedness, and hazardous 
fuels reduction activities. Departmental agencies employ an integrated 
approach to wildland fire management, including the prioritization of 
hazardous fuels treatments to mitigate the potential risk of wildfires. 
Utilities that hold ROW grants are an important partner in this 
approach.
    Electrical transmission ROWs are often located where they can 
provide significant potential for the establishment of fuel breaks and 
for linking hazardous fuels reduction projects to manage a stronger 
network of fuel breaks that contributes to more resilient landscapes. 
Such projects help the BLM to protect communities and natural resources 
from wildland fire, and the utilities to ensure protection of their 
electricity transmission and distribution infrastructure. The Cohesive 
Strategy highlights the importance of working with communities to 
identify community values and infrastructure, including electricity 
transmission facilities, to be prioritized for proactive mitigation of 
wildfire risk. Hazardous fuels reduction projects that protect vital 
infrastructure can also help the Department of the Interior to protect 
rural communities from wildland fire, and the presence of important 
infrastructure is one of the factors that the Department considers in 
prioritizing hazardous fuels projects. We view utilities as an 
important partner in helping to accomplish our mutual goal of 
mitigating the risks posed by wildland fires to health and safety, 
infrastructure, private property, wildlife habitat, and other vital 
resources.
                          cooperative approach
    Under the Energy Policy Act of 2005, which directed Federal land 
managing agencies to expedite approvals necessary to allow the owners 
or operators of electric transmission or distribution facilities to 
comply with standards for vegetation management that imminently 
endanger the reliability or safety of the facilities, the BLM and other 
Federal agencies have worked toward further collaboration with 
utilities. The BLM is a party, along with other Departmental agencies, 
the Environmental Protection Agency, the Forest Service, and the Edison 
Electric Institute (an association of shareholder-owned electric 
companies), to an interagency Memorandum of Understanding (MOU) that 
formalizes a cooperative approach to streamline the management of 
vegetation near utility facilities. The MOU facilitates a variety of 
mutually accepted goals, including maintaining reliable electric 
service, improving safety, reducing the likelihood of wildfires, 
reducing soil erosion, reducing environmental risk, streamlining 
administrative processes, and incorporating integrated vegetation 
management (IVM) where appropriate, among others. Under the MOU, the 
parties agreed to a set of IVM practices intended to protect human 
health and the environment and to the principles of cooperation, timely 
communication, and consistent management, among others. The current MOU 
has expired, but its operational principles are still in use and the 
parties are currently working toward renewing and updating the MOU.
    The BLM has also worked closely with utilities that hold many BLM 
rights-of-way, such as Arizona Public Service, NV Energy, and Idaho 
Power, to establish master agreements that provide standard terms and 
conditions that can be applied to multiple right-of-way grants. These 
agreements enhance consistency across BLM offices and create greater 
predictability and efficiency for the utility operators as they do 
business with the BLM. In Idaho, this cooperation has led to increased 
efficiency in the approval of operations and maintenance proposals for 
transmission rights-of-way and associated infrastructure.
                               conclusion
    The BLM values our partnerships with the holders of electrical 
transmission and distribution rights-of-way, and we will continue to 
work toward further collaboration to accomplish our shared goals. We 
believe that early and coordinated planning and communication are 
essential to ensure that vegetation management can occur expeditiously 
and that ROW holders can comply with standards for vegetation 
management. We appreciate the opportunity to continue to work closely 
with ROW holders, and the committee's attention to this issue. Thank 
you for the opportunity to be here, and I would be glad to answer any 
questions.

                                 ______
                                 

    Mrs. Lummis. Thank you, panel. The Chair now recognizes 
herself for 5 minutes.
    Mr. Roberson, were you here to have the advantage of 
hearing our first panel?
    Mr. Roberson. Yes, ma'am.
    Mrs. Lummis. Did you have the opportunity to hear Mr. 
Easley discuss his concerns about Rural Utility Service's 
determinations of eligibility of co-ops for BLM's right-of-way 
status?
    Mr. Roberson. Yes, ma'am.
    Mrs. Lummis. Do you recognize a problem there?
    Mr. Roberson. Yes, ma'am. There--would you----
    Mrs. Lummis. How is that resolvable?
    Mr. Roberson. We are currently working with RUS and the 
U.S. Department of Agriculture on an MOU that streamlines the 
process. We had an agreement in place 6 years ago, or 8 years 
ago, and it really did not solve the problem, because we have--
and their analysis, they provide certification that a member 
utility is eligible for a non-rental.
    We also, in looking at that, part of the requirement is 
what type of facility goes in, and who the facility serves, 
what that rural service area is. So, we take into account those 
things that have slowed down our process. Right at this moment, 
and--my understanding is in the not-too-distant future we will 
have a new agreement with them to resolve that issue.
    We have been able to drop back. Last year we had 50 
utilities that were waiting to hear about their determination 
non-rental. We are down to 24. When we get this agreement in 
place, we plan to move that to zero.
    Mrs. Lummis. So you don't take RUS's word for it about who 
is eligible for RUS financing, even though RUS is the Federal 
agency that makes that determination?
    Mr. Roberson. Again, we see a four-level determination 
being made. Their determination that the member qualifies is 
slightly different from the areas served--who is served. We 
look at that, as well, in making the final determination 
negotiations with RUS.
    Mrs. Lummis. Is that clear in your rules?
    Mr. Roberson. That is the way we have been operating. And, 
as I said, we are working on a new MOU to try to reconcile, to 
streamline a little better, because we still have a cognitive 
dissonance between RUS and us about exactly what they are 
analyzing and how they are making their determination, compared 
to what our requirement is and the Federal land----
    Mrs. Lummis. And why is that? Why is there this cognitive 
dissonance? I know it is not unique to Federal agencies. But it 
does seem to be pretty common in Federal agencies, where the 
Federal agencies have a cognitive dissonance, and then works to 
the detriment of people who pay for electricity in this 
country.
    Mr. Roberson. In some cases, as we have found in doing more 
collaborative and cooperative work with the Forest Service on 
planning, we have different laws that we operate under. And our 
regulations that descend from those laws sometimes, when a new 
process is put in place, we have to find alignment. And I think 
one of the members of the first panel talked about that 
alignment, and that is what we are working on right now with 
RUS.
    Mrs. Lummis. Thank you, Mr. Roberson. Mr. Penna, quick 
question for you. You mentioned the Forest Service desk guide, 
and quoted the emphasis that utilities are responsible to 
immediately remove vegetation that poses an immediate threat to 
power line infrastructure. Did you have an opportunity to hear 
the first panel?
    Mr. Penna. Yes, I did.
    Mrs. Lummis. Thank you, Mr. Penna. Their testimony 
indicated that, in spite of their willingness to fulfill the 
obligation to immediately remove vegetation, that they have had 
delays and disjointed decisionmaking and denials to prevent 
them from doing what your desk guide calls for. How do you 
respond to that?
    Mr. Penna. I think it would be good to be able to get a 
little more information from them on if it was an imminent 
threat, or if they are talking about normal, routine 
maintenance plans that may cover a greater extent, because the 
direction that we have had--and I have been a line officer from 
a district ranger to forest supervisor on the ground, and for 
20 years, and I don't have that understanding. I don't think 
imminent threat is a problem. We should be able to have them 
remove imminent threats immediately.
    Mrs. Lummis. Thank you, gentlemen. My time is expired. 
Appreciate your testimony.
    The Chair now recognizes the gentleman from Oregon, Mr. 
DeFazio.
    Mr. DeFazio. Thank you, Madam Chair. Just to follow up with 
the Forest Service, I do have the cover letter for the desk 
guide. But it says, ``This guide does not supercede any 
existing plans or directives. Nor is it a substitute for 
legally binding operating plans. It does not attempt to address 
all environmental concerns. Instead, it seeks to balance 
requirements and needs of integrated forest''--blah, blah, 
blah, blah.
    I guess my question is--and you heard from the first panel 
where we are having problems with consistency, even between 
ranger districts, and definitely between forests. Why can't 
existing right-of-ways fall under categorical exclusion for 
maintenance?
    Mr. Penna. Oftentimes they can, and they do. It depends on 
the level and activity of disturbance, and the controversy that 
activity may generate, and the types of other resources that 
may be affected. Typically, on a normal right-of-way, where you 
are not doing things that are controversial, like applying 
herbicides, getting involved----
    Mr. DeFazio. Well, that is controversial in certain 
quarters. But in any case, yes. But my point, I mean, is there 
general guidance in your desk guide that, except for unusual 
and extraordinary circumstances, these should be categorically 
excluded activities?
    Mr. Penna. No. I think our guidance is to follow the NEPA 
policy of the agency, and determine the appropriate level, 
based on the work that is being----
    Mr. DeFazio. So, if we were to develop a plan for 
integrated vegetation management which is appropriate for the 
affected ecosystem, could we then go to categorical exclusions?
    Mr. Penna. A scenario I could see, in responding to the 
gentleman's suggestion on how we move more effectively, is we 
do work with the utility to develop a management plan that 
covers multiple years, do NEPA once, and that is covered. Then, 
as long as we maintain and renew that, once that NEPA is 
expired or no longer appropriate, I would think that we could 
maintain that existing situation, once we have it in place, 
with a much lower level of analysis. Sometimes it takes----
    Mr. DeFazio. I am still having trouble with this. I mean, 
how about this issue we are having in Oregon, where we have 
existing rights-of-way, the towers are there, but the Forest 
says, ``Oh, no, you've got to apply for a right-of-way,'' it is 
like a new right-of-way?
    Mr. Penna. The only thing I can say about that is we have a 
lot of rights-of-way on national forests that predate the 
requirements for permits. And so, trying to track the records--
it is obvious that the developments are there, and it is being 
used. I think the example with Bonneville Power Administration 
of how we are going to resolve that in the long term is 
probably the course of action that we should explore more 
broadly.
    Mr. DeFazio. But the example I used was, we lack early 
seral on west side Oregon. If we just said, ``OK, we know it 
would be beneficial for a whole range of species, and it would 
be compatible with industry guidelines if they developed 
this,'' and if they removed the coniferous vegetation and we 
allowed early seral stage development, which doesn't get to 
heights which would be problematic, and managed for that, I 
mean, it seems to me that there just needs to be a simplified 
process here.
    I mean your people--you know, you are not overstaffed in 
your agency, you have a lot more important things to do than 
over-regulating existing rights-of-way, and/or going through a 
repetitive process or a new process for an existing right-of-
way because you don't have the paperwork from 1934, or there 
wasn't any in 1934. So, again, I am concerned.
    The MOU that BLM is going to develop, is that going to 
allow for categorical exclusions and integrated vegetation 
management?
    Mr. Roberson. Yes. Yes, Congressman DeFazio. And one 
example from Congressman Tipton's own area, where we have 
actually built on that integrated vegetation management, on the 
Uncompahgre Plateau, we have worked with the local community, 
the other land management agencies, and the utilities, to find 
a way to build the corridor into a mosaic landscape with the 
early seral, as you discussed, so that you have better habitat 
for wildlife, and you have better fire resilience and 
resistance. You can fight the fire better. And we are using 
that line as a fire break.
    So, I think we like to think that we are getting to a place 
where we are smart from the start, where we meet with these 
utility companies early, and talk to them about the full needs 
that they are going to have through the life of that right-of-
way, that we use the cohesive strategy, as I mentioned in my 
testimony, and try to figure out how can we meet multiple 
objectives in the most efficient manner.
    Mr. DeFazio. OK.
    Mr. Roberson. That is going to take cooperation up front. I 
met with quite a few of the Members who spoke today, and we are 
committed to work with them, and listen to them, and work----
    Mr. DeFazio. OK. My time has expired. Thank you. Appreciate 
it, thank you. Thank you very much.
    Mrs. Lummis. I thank the gentleman. The Chair now 
recognizes the gentleman from California, Mr. LaMalfa.
    Mr. LaMalfa. Thank you, Madam Chairman. Mr. Roberson, I 
heard hope in some of what you had to say there, in that--and 
responsiveness, that you really seem to want to get there with 
an MOU that is going to work long term, that doesn't have to 
re-invent the wheel every time somebody has an issue.
    But, Mr. Penna, I didn't really hear answers as to how we 
are going to go forward. Both you gentlemen, you heard out loud 
the frustrations of the panel before you. Yes? Right?
    Mr. Penna. Yes.
    Mr. LaMalfa. OK. So then, when you take that--I always want 
to take it back to the kitchen table, to our average Americans 
that hear what goes on with their land, the way it is managed, 
how it affects their power, its reliability, its costs. And 
when they hear this stuff, you folks, as agency people, aren't 
you embarrassed after a while, that this is what it takes to do 
simple things? Both of you.
    Mr. Penna. I will respond. Yes, it does. I also am mindful 
that, in many cases--and what I heard was--it isn't an issue. 
We do get it done right. And so, I think what we are committed 
to continue to focus on is how do we increase the capabilities 
of all the units to respond to requests across the board more 
effectively and efficiently.
    When I think of the situation we have now compared to 10 
years ago, the resources that we have to deal with and respond 
to special use requests of all types, it is not the same as it 
was. And I think that, in spite of that, we are still 
responsive to a higher degree than I felt like we got portrayed 
as today. I have no doubt those examples are real. I also have 
no doubt that in many cases--many, many cases--we are being 
responsive, and we are taking proactive ways to----
    Mr. LaMalfa. Well, let's drill down on that. I am sorry, my 
time is always limited here. But some units--and I will give 
credit where it is due--it works very well. And some units, you 
have a unit manager who seems to have an attitude, you can't 
get any cooperation out of. So, how can somebody at the higher 
levels here, from top down, enforce a little more consistency 
with what we know is going to work, what has worked, instead of 
needing--you know, somebody might decide you need a NEPA every 
time you want to do the slightest thing.
    I mean, once and for all, you have a corridor that needs 
maintaining. The integrated vegetative management makes very 
good sense. Why can't we just get to the end result, and not 
have to re-study it or re-permit it every time? So--and the 
first part, please: consistency of good policy across unit to 
unit.
    Mr. Penna. I think the desk guide is a beginning. I think 
revising some of our regulations, based on what we learned 
about the desk guide, could be a piece.
    Also, getting more line officers to training on special 
uses. We have joint training we put on between the BLM and 
Forest Service for line officers. I have been to it, I have 
spoken at it. It is invaluable in helping people that don't 
have a lot of experience dealing with special uses, to 
understand the perspectives of the permittees, and how to be 
more responsive, and how to redeem agency responsibilities in a 
timely manner.
    Mr. LaMalfa. What is so hard about the training to have 
somebody understand that there are power lines running through 
here that need to be trimmed? And vegetative management makes 
sense. What is so tough that it takes so----
    Mr. Penna. I don't think that is tough. And that is not the 
issue, I don't believe. I think the issue is--in my own 
experience, is that line officer is dealing with, probably 100 
other permittees that are asking for things to be done. They 
are trying to get other work done that they have to coordinate 
and budget time for and assess risks on which is the biggest 
thing that needs to get done today. And so----
    Mr. LaMalfa. If there was a simpler template, if you are 
just going down a checklist, you do this and this, instead of 
so much micro-managing----
    Mr. Penna. I think the thing that is the savior for all of 
us is if there are imminent threats, they have authority to go 
deal with those imminent threats. They don't have to wait. And 
I think that that is the answer for imminent threats.
    To deal with the integrated vegetation management, that is 
going to take more planning, and to agree on how to apply that. 
But once it is done, it is done. And I think being able to get 
through that is the biggest challenge.
    I have no doubt that the stories that were told here are 
frustrating, they would be frustrating to me. And, as a line 
officer, if I had a district ranger, or if I was a district 
ranger in that position, I would be embarrassed. I would want 
to take action on it.
    But I also recognize that it is not as simple. Our line 
officers are asked to do a lot of things----
    Mr. LaMalfa. Well, our job is to make it simpler here. So 
we need----
    Mr. Penna. I know it.
    Mr. LaMalfa [continuing]. To know about legislative--we 
legislate. Are there laws that we can change, or little things 
we can tweak? You mentioned controversy caused things that can 
delay it.
    Now, what also needs to happen is that we need to have a 
little more guts within these organizations, that just the 
threat of an environmental group coming along and saying, ``We 
are going to sue over this, over that.'' I mean, if it makes 
common sense, you finally have to stand up and say, ``Go ahead 
and play your game, but we have to get some things done under 
known prescriptions that work. And if you don't like it, you 
just want to cause controversy,'' then we will back you if you 
carry out the mission.
    And we are here to help if we trust that the funding is 
going where it needs to go, and we are here to help on 
legislative stuff, that you come with us and say, ``Can we 
change this law a little bit? Because this is a road block to 
doing the type of thing that makes sense.''
    Madam Chair, I yield back. Thank you.
    Mrs. Lummis. I thank the gentleman. I also thank the panel 
of witnesses for your valuable testimony. And I want to thank 
you for listening to the first panel, as well, gentlemen.
    Members of this committee may have additional questions for 
you. And the hearing record will be open for 10 days to submit 
questions to you. We hope to receive your responses. We ask 
those responses be in writing, as per our usual practice.
    Is there further business before this committee?
    [No response.]
    Mrs. Lummis. Without objection, we stand adjourned.
    [Whereupon, at 12:17 p.m., the committee was adjourned.]

            [ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD]

   Prepared Statement of the Hon. Scott Tipton, a Representative in 
                  Congress from the State of Colorado
    Today, the House Committee on Natural Resources will hear from 
electric power providers in the West regarding the current challenges 
to operating and maintaining electricity rights-of-way on Federal 
lands, and ensuring reliable, low cost energy depended on by homes and 
businesses.
    I would like to thank our utility witnesses for making the trip to 
be with us today, and for sharing their valuable insight on how to 
improve the existing regulatory framework so we can better protect 
critical infrastructure, safeguard local communities and species 
habitat, and reduce costs to ratepayers. We are also joined by 
officials from the two agencies tasked with managing lands through 
which transmission lines pass--the United States Forest Service and the 
Bureau of Land Management. I would also like to welcome the audience 
members of the rural electric cooperatives who have taken time out of 
their busy schedules to watch this hearing.
    Rural electric cooperatives and investor owned utilities provide 
critical power supplies to millions of homes and businesses throughout 
the West. In order to route this supply across long distances, power 
providers receive special use permits from the Forest Service and the 
Bureau of Land Management which provide them with rights-of-way to run 
and operate transmission and distribution lines on Federal public 
lands. While most utilities have the capability to actively manage 
vegetation within their rights-of-way, they and their customers depend 
on the Forest Service and the Bureau of Land Management to responsibly 
manage hazardous trees on Federal lands immediately outside the right-
of-way. When these trees aren't properly managed in a timely manner, 
they inevitably fall into rights-of-way and onto transmission lines, 
causing massive blackouts, leaving homes, small businesses and schools, 
hospitals, and other critical services without power for days at a 
time. History has proven that improper vegetative management can lead 
to severe consequences. In 2003, for example, a downed tree hit a 
transmission line causing 50 million people to lose power across the 
northeastern United States.
    Forest fires resulting from downed trees and lack of proactive 
management pose a direct threat to human health and safety. Failure to 
actively manage hazardous trees near transmission lines is 
irresponsible as stewards of the natural environment, and too often we 
fail to consider the species habitat destroyed in forest fires when 
making decisions about active forest management. Debris from these 
resulting forest fires pollutes water supplies for humans and species, 
and can cost tens of millions of dollars to mitigate. Ultimately the 
costs of wildfires caused by failure to remove hazardous trees fall on 
local communities and ratepayers, who bear the brunt of repair, 
rebuilding, and, in many cases, unfair liability costs.
    Today's testimony will highlight the current lack of uniformity in 
Federal policy for managing hazardous trees near utility rights-of-way, 
and an untenable liability framework that discourages, and in some 
cases prohibits cooperation between power providers and Federal 
agencies to address hazardous conditions before they cause catastrophic 
wildfires. Under the status quo, determinations about whether or not to 
address emergency circumstances are too often dependent on the whims of 
local land managers, and utilities are prohibited from removing 
hazardous trees that threaten their lines, but are held strictly liable 
if the Federal Government fails to do its job and address hazards on 
lands they manage. This has to change. It is my hope that today's 
hearing will highlight what needs to be done to proactively mitigate 
hazardous conditions, safeguard local communities, and ensure reliable 
low cost power supplies for ratepayers. Again, I want to thank our 
witnesses for being here today and yield to the Ranking Member of the 
Committee.

                                 ______
                                 

[LIST OF DOCUMENTS SUBMITTED FOR THE RECORD RETAINED IN THE COMMITTEE'S 
                            OFFICIAL FILES]

Ball, Sarah K., Edison Electric Institute, Capitalizing on 
Conservation: The Ecological Benefits of Transmission Line 
Rights-of-Way

Daley, Beth, Green lines: What does it take to save a species? 
Sometimes, high-voltage power wires. Boston Globe article, Nov. 
22, 2009.

Hurst, George A., Rights-of-Way for Wildlife, National Wild 
Turkey Federation Wildlife Bulletin No. 19, http://
www.mdwfp.com/media/7662/rights-of-way.pdf.

PEPCO, Rights-of-Way Can Provide Valuable Habitat for Wildlife.

U.S. Fish and Wildlife Service, Managing Utility Rights-of-Way 
for Wildlife Habitat, National Conservation Training Center 
Course #TEC7179, http://nctc.fws.gov/courses/CSP/CSP7179/
resources/ROWHabitat.pdf.

                                 [all]
</pre></body></html>
